The Department of Health and Human Services

                    And

          The Department of Justice

Health Care Fraud and Abuse Control Program

         Annual Report For FY 2006





                November 2007
TABLE OF CONTENTS


                                                                       Page

Executive Summary                                                      1


Introduction                                                           3


Monetary Results                                                       5


Program Accomplishments                                                7


       Department of Health and Human Services

             Office of Inspector General                               25

             Centers for Medicare & Medicaid Services                  34

             Administration on Aging                                   34

             Office of the General Counsel                             35

             Health Resources and Services Administration              37

             Office of the National Coordinator 

                for Health Information Technology                      38



       Department of Justice

             United States Attorneys                                   39

             Civil Division                                            40

             Criminal Division                                         41

             Civil Rights Division                                     43


       Appendix: Federal Bureau of Investigation - Mandatory Funding   47


Glossary of Terms                                                      51





                                     GENERAL NOTE

                               All years are fiscal years unless

                                 otherwise noted in the text.

                           EXECUTIVE SUMMARY

The Health Insurance Portability and Accountability Act of 1996 (HIPAA) established a national
Health Care Fraud and Abuse Control Program (HCFAC or the Program), under the joint
direction of the Attorney General and the Secretary of the Department of Health and Human
Services (HHS)1, acting through the Department’s Inspector General (HHS/OIG), designed to
coordinate Federal, state and local law enforcement activities with respect to health care fraud
and abuse. In its tenth year of operation, the Program’s continued success again confirms the
soundness of a collaborative approach to identify and prosecute the most egregious instances of
health care fraud, to prevent future fraud or abuse, and to protect program beneficiaries.

Monetary Results

During FY 2006, the Federal Government won or negotiated approximately $2.2 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Fund received transfers of approximately $1.5
billion during this period as a result of these efforts, as well as those of preceding years, in
addition to $177.1 million in Federal Medicaid money similarly transferred separately to the
Treasury as a result of these efforts. The HCFAC account has returned over $10.4 billion to the
Medicare Trust Fund since the inception of the program in 1997.

Enforcement Actions

In FY 2006, U.S. Attorneys' Offices opened 836 new criminal health care fraud investigations
involving 1,448 potential defendants. Federal prosecutors had 1,677 health care fraud criminal
investigations pending, involving 2,713 potential defendants, and filed criminal charges in 355
cases involving 579 defendants. A total of 547 defendants were convicted for health care
fraud-related crimes during the year. Also in FY 2006, the Department of Justice (DOJ) opened
915 new civil health care fraud investigations, and had 2,016 civil health care fraud
investigations pending at the end of the fiscal year.




       1
        Hereafter, referred to as the Secretary.

                                                   1

Page intentionally left blank




              2
                                 INTRODUCTION

                         ANNUAL REPORT OF 

             THE ATTORNEY GENERAL AND THE SECRETARY

                DETAILING EXPENDITURES AND REVENUES

      UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM

                        FOR FISCAL YEAR 2006


                                      As Required by 

                         Section 1817(k)(5) of the Social Security Act


                               STATUTORY BACKGROUND



The Social Security Act Section 1128C(a), as established by the Health Insurance Portability and
Accountability Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse in health care,
including both public and private health plans.

The Act requires that an amount equaling recoveries from health care investigations -- including
criminal fines, forfeitures, civil settlements and judgments, and administrative penalties, but
excluding restitution, compensation to the victim agency, and relators’ shares -- be deposited in
the Medicare Trust Fund.2 All funds deposited in the Trust Fund as a result of the Act are
available for the operations of the Trust Fund.

The Act appropriates monies from the Medicare Trust Fund to an expenditure account, called the
Health Care Fraud and Abuse Control Account (the Account), in amounts that the Secretary and
Attorney General jointly certify as necessary to finance anti-fraud activities. The maximum
amounts available for certification are specified in the Act. Certain of these sums are to be used
only for activities of the HHS/OIG, with respect to Medicare and Medicaid programs. In FY
2006, the Secretary and the Attorney General certified $240.558 million for appropriation to the
Account. A detailed breakdown of the allocation of these funds is set forth later in this report.
These resources generally supplement the direct appropriations of HHS and DOJ that are
devoted to health care fraud enforcement. These resources also funded approximately 80% of
the HHS/OIG expenses in FY 2006. (Separately, the Federal Bureau of Investigation (FBI)
received $114 million from HIPAA which is discussed in the Appendix.)




       2
       Also known as the Hospital Insurance (HI) Trust Fund. All further references to the
Medicare Trust Fund refer to the HI Trust Fund.
                                               3
Under the joint direction of the Attorney General and the Secretary, the Program’s goals are:

(1)	   to coordinate federal, state and local law enforcement efforts relating to health care fraud
       and abuse with respect to health plans;

(2)	   to conduct investigations, audits, inspections, and evaluations relating to the delivery of
       and payment for health care in the United States;

(3)	   to facilitate enforcement of all applicable remedies for such fraud;

(4)	   to provide guidance to the health care industry regarding fraudulent practices; and

(5)	   to establish a national data bank to receive and report final adverse actions against health
       care providers, and suppliers.

The Act requires the Attorney General and the Secretary to submit a joint annual report to the
Congress which identifies both:

(1)	   the amounts appropriated to the Trust Fund for the previous fiscal year under various
       categories and the source of such amounts; and

(2)	   the amounts appropriated from the Trust Fund for such year for use by the Attorney
       General and the Secretary and the justification for the expenditure of such amounts.

This annual report fulfills the above statutory requirements.




                                                 4

                                  MONETARY RESULTS

As required by the Act, HHS and DOJ must detail in this Annual Report the amounts deposited
and appropriated to the Medicare Trust Fund, and the source of such deposits. In FY 2006,
$1.78 billion was deposited with the Department of the Treasury and the Centers for Medicare
and Medicaid Services (CMS), transferred to other Federal agencies administering health care
programs, or paid to private persons during the fiscal year. The following chart provides a
breakdown of the transfers/deposits:

                                  Total Transfers/Deposits by Recipient FY 2006

            Department of the Treasury
             HIPAA Deposits to the Medicare Trust Fund
                  Gifts and Bequests                                                          $30,085
                  Amount Equal to Criminal Fines                                         $143,759,622
                  Civil Monetary Penalties                                                $19,413,407
                  Asset Forfeiture *                                                               $0
                  Penalties and Multiple Damages                                         $297,384,495

                     Subtotal                                                            $460,587,610
            Centers for Medicare & Medicaid Services
             HHS/OIG Audit Disallowances - Recovered                                     $378,400,000
             Restitution/Compensatory Damages                                            $708,143,083

                     Subtotal                                                          $1,086,543,083

            Grand Total                                                                $1,547,130,693

            Restitution/Compensatory Damages to Federal Agencies

            Office of Personnel Management                                                $57,706,781
            TRICARE                                                                       $14,707,156
            HHS/OIG Cost of Audits, Investigations and Compliance
            Monitoring                                                                      $9,022,178
            Veteran’s Administration                                                        $5,291,723
            Indian Health Services                                                          $3,245,069
            Administration for Children and Families                                        $2,589,526
            Other Agencies                                                                  $4,641,347

                     Subtotal                                                             $97,203,780


            Relators’ Payments**                                                         $140,229,514

                 TOTAL ***                                                             $1,784,563,987

*This includes only forfeitures under 18 U.S.C. § 1347, a Federal health care fraud offense that became effective on
August 21, 1996. Not included are forfeitures obtained in numerous health care fraud cases prosecuted under
Federal mail and wire fraud and other offenses.
**These are funds awarded to private persons who file suits on behalf of the Federal Government under the qui tam
provisions of the False Claims Act, 31 U.S.C. § 3730(b).
***Funds are also collected on behalf of state Medicaid programs and private insurance companies; these funds are
not represented here.

                                                         5

The above transfers include certain collections, or amounts equal to certain collections, required
by HIPAA to be deposited directly into the Medicare Trust Fund. These amounts include:

(1)	   Gifts and bequests made unconditionally to the Trust Fund, for the benefit of the Account
       or any activity financed through the Account;

(2)	   Criminal fines recovered in cases involving a Federal health care offense, including
       collections under section 24 (a) of Title 18, United States Code (relating to health care
       fraud);

(3)	   Civil monetary penalties in cases involving a Federal health care offense;

(4)	   Amounts resulting from the forfeiture of property by reason of a Federal health care
       offense, including collections under section 982(a)(7) of Title 18, United States Code;
       and

(5)	   Penalties and damages obtained and otherwise creditable to miscellaneous receipts of the
       general fund of the Treasury obtained under sections 3729 through 3733 of Title 31,
       United States Code (known as the False Claims Act, or FCA), in cases involving claims
       related to the provision of health care items and services (other than funds awarded to a
       relator, for restitution or otherwise authorized by law).




                                                6

                  PROGRAM ACCOMPLISHMENTS

EXPENDITURES

In the tenth year of operation, the Secretary and the Attorney General certified $240.558 million
as necessary for the Program. The following chart gives the allocation by recipient:

              FY 2006 ALLOCATION OF HCFAC APPROPRIATION
                            (Dollars in thousands)
                           Organization                             Allocation
      Department of Health and Human Services
       Office of Inspector General3                                       $160,000
       Office of the General Counsel                                         4,778
       Administration on Aging                                               3,128
       Centers for Medicare & Medicaid Services (CMS)                       22,297
       Health Resources and Services Administration                            450
       Office of the National Coordinator for Health
            Information Technology (ONC)                                         490

      Subtotal                                                            $191,143
      Department of Justice
        United States Attorneys                                            $30,400
        Civil Division                                                      14,459
        Criminal Division                                                    1,580
        Civil Rights Division                                                1,976
        Nursing Home and Elder Justice Initiative                            1,000


      Subtotal                                                             $49,415

      Total                                                               $240,558




       3
         In addition, HHS/OIG obligated $9.02 million in funds received as “reimbursement for
the costs of conducting investigations and audits and for monitoring compliance plans” as
authorized by section 1128C(b) of the Social Security Act, 42 U.S.C. § 1320a-7c(b).
                                                7
ACCOMPLISHMENTS

Overall Recoveries

During this fiscal year, the Federal Government won or negotiated approximately $2.2 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Fund received transfers of approximately $1.5
billion during this period as a result of these efforts, as well as those of preceding years, in
addition to $177.1 million in Federal Medicaid money similarly transferred to the Treasury
separately as a result of these efforts4.

In addition to these enforcement actions, numerous audits, evaluations and other coordinated
efforts yielded recoveries of overpaid funds, and prompted changes in Federal health care
programs that reduce vulnerability to fraud. In FY 2006, HHS collected more than $378.4 million
in HHS/OIG recommended recoveries.

Program Accomplishments

Working together, HHS/OIG, DOJ and their law enforcement partners have brought to successful
conclusion the investigation and prosecution of numerous health care fraud schemes. During FY
2006, the many significant HCFAC Program accomplishments included the following:

Hospital Fraud

'	     Tenet Healthcare Corporation, operator of the nation’s second largest hospital chain,
       agreed to pay the United States more than $900 million for billing practices that were
       alleged to be unlawful in lawsuits filed by whistleblowers. Under the agreement, Tenet,
       which is headquartered in Dallas but operates dozens of hospitals throughout the United
       States, will pay a total of $900 million over a 4-year period, plus interest, to resolve
       various types of civil allegations involving Tenet’s billings to Medicare and other Federal
       health care programs.

       Of the $900 million settlement amount, the agreement requires Tenet to pay:

       <	     more than $788 million to resolve claims arising from Tenet’s receipt of excessive
              “outlier”payments (payments that are intended to be limited to situations involving
              extraordinarily costly episodes of care) resulting from the hospitals’ inflating their




        4
         Note that some of the judgments, settlements, and administrative actions that occurred in
FY 2006 will result in transfers in future years, just as some of the transfers in FY 2006 are
attributable to actions from prior years.
                                                  8
             charges substantially in excess of any increase in the costs associated with patient
             care, and billing for services and supplies not provided to patients;5
      <	     more than $47 million to resolve claims that Tenet paid kickbacks to physicians to
             get Medicare patients referred to its facilities, and that Tenet billed Medicare for
             services that were ordered or referred by physicians with whom Tenet had an
             improper financial relationship; and,
      <	     more than $46 million to resolve claims that Tenet engaged in “upcoding,” which
             refers to situations where diagnosis codes that Tenet is unable to support or that
             were otherwise improper were assigned to patient records in order to increase
             reimbursement to Tenet hospitals.

'	    St. Barnabas Health Care System, the largest health care system in New Jersey, paid $265
      million to resolve allegations that nine of its hospitals fraudulently increased charges to
      elderly patients to obtain enhanced Medicare reimbursement for outlier claims. The
      United States alleged that between October 1995 and August 2003, Saint Barnabas and
      nine of its hospitals purposefully inflated charges for inpatient and outpatient care to make
      these cases appear more costly than they actually were, and thereby obtained outlier
      payments from Medicare that they were not entitled to receive. Saint Barnabas entered
      into a Corporate Integrity Agreement (CIA) with the HHS/OIG. The CIA contains
      measures to ensure compliance with Medicare regulations and policies in the future.

'	    Our Lady of Lourdes Regional Medical Center agreed to pay the United States $3.8
      million to settle claims that they defrauded Medicare, TRICARE, and Medicaid from 1999
      to 2003. The civil settlement resolves allegations that the Lafayette, Louisiana, facility
      submitted claims for medically unnecessary angiogram, angioplasty, and stenting
      procedures that were performed at the hospital from 1999 to 2003. The allegations arose
      from a lawsuit filed by a whistleblower at the hospital.

'	    Beth Israel Medical Center in New York City paid $73 million to resolve allegations that
      it submitted false claims for Medicare reimbursement in cost reports from 1992 to 2001.
      The Government alleged that Beth Israel misrepresented information related to the
      operating costs of its Kings Highway Division in Brooklyn and improperly claimed
      certain nonreimbursable costs. These costs included the costs of private offices for Beth
      Israel’s faculty physicians, overhead for its methadone maintenance treatment program,
      fund-raising and marketing costs, and staff living quarters already paid for through rent
      collected from Beth Israel employees. The settlement resulted in part from a voluntary
      disclosure by Beth Israel and in part from a qui tam suit filed by a relator.



       5
         Congress enacted the supplemental outlier payment system to defray a portion of the

costs to care for the very sickest patients, where reimbursement under the prospective payment

system falls far short of the hospital’s actual cost to care.

                                                  9
'	   Following a three-week trial, the former owner and chief executive officer of the now
     defunct Edgewater Hospital in Chicago, was found liable under the FCA for engaging in
     an illegal kickback scheme at Edgewater. The court found that the defendant paid
     physicians for Medicare and Medicaid patient referrals in violation of federal law. The
     court held that the hospital’s cost reports and individual patient claims for patients referred
     in connection with the scheme were false claims, and awarded treble damages and
     penalties on just over 1,800 claims.

'	   Two owners of a former San Diego psychiatric hospital were found liable after trial for
     more than $15.7 million in damages and penalties for having included false claims in the
     hospital’s cost report submitted to the Medicare program. Those cost reports sought
     reimbursement from the Medicare program for a variety of false costs, such as amounts
     for a fictitious lease, reimbursement for unused hospital space, and millions of dollars in
     costs that were actually attributable to the defendants’ business enterprises unrelated to
     that hospital. The court awarded the United States $15.7 million for treble damages and
     $31,000 in civil penalties.

'	   University Hospitals Health System (UH) in Ohio paid the United States $13.8 million to
     resolve allegations that UH violated the FCA. The payment resolved a qui tam suit
     brought by a physician formerly affiliated with UH, who alleged that UH entered into
     illegal financial arrangements with physicians in order to induce referrals to UH for
     services reimbursable by Medicare.

'	   Chattanooga-Hamilton County Hospital Authority, the public nonprofit corporation that
     owns and operates Erlanger Medical Center located in Chattanooga, Tennessee, paid $37
     million to the United States and $3 million to Tennessee to settle claims that Erlanger paid
     money and other compensation, directly or indirectly, intended to induce physician
     referrals to its facilities in violation of the Anti-kickback Statute.

'	   The Milton S. Hershey Medical Center paid the United States $2.9 million to settle
     allegations that it improperly submitted infusion therapy claims despite having been
     notified on five separate occasions that it was submitting its bills for these services
     improperly. This settlement was part of a joint project in Pennsylvania between the
     United States Attorney’s Offices and the HHS/OIG to investigate whether Pennsylvania
     hospitals submitted erroneous infusion therapy and/or blood transfusion claims to the
     Medicare Program which has resulted in numerous settlements and the return of over $8
     million to the Medicare Program.




                                               10

Pharmaceutical Fraud

'	    The Swiss corporation Serono, S.A., one of the world’s largest biotech manufacturers,
      paid $704 million to resolve criminal charges and civil liabilities in connection with
      several illegal schemes to promote and sell its drug, Serostim, that resulted in the
      submission of false claims to Medicaid and other federally funded health care programs.
      The Food and Drug Administration (FDA) had granted accelerated approval for Serostim
      in 1996 to treat Auto-Immune Deficiency Syndrome (AIDS) wasting, a condition
      involving profound involuntary weight loss in AIDS patients, then a leading cause of
      death in AIDS patients. Following the advent of protease inhibitor drugs, the incidence of
      AIDS wasting markedly declined, and Serono launched a campaign to redefine AIDS
      wasting to create a market for Serostim. While doctors are permitted to prescribe drugs
      for uses that are not approved by the FDA, pharmaceutical companies are prohibited from
      marketing drugs for unapproved, or “off-label” uses.

      Serono pled guilty to conspiring with RJL Sciences, a medical device manufacturer, to
      introduce on the market bioelectrical impedance analysis (BIA) computer software
      packages for use in measuring body cell mass and diagnosing AIDS wasting. The FDA
      had not approved the BIA software packages for these uses. RJL and its owner also pled
      guilty to their roles in the conspiracy. In addition, Serono pled guilty to conspiring to
      offer doctors kickbacks in the form of free trips to Cannes, France, to induce them to
      prescribe Serostim.

      The $704 million Serono settlement consisted of $305 million (plus accrued interest) paid
      by Serono to resolve FCA allegations that it knowingly caused the submission of claims
      for Serostim that were not eligible for reimbursement because they were for unnecessary
      or unapproved uses and because the claims were for prescriptions induced by kickbacks to
      physicians and pharmacies. It also included $262 million plus interest paid to state
      Medicaid programs, as well as $136.9 million in criminal fines.

'	    Schering-Plough Corporation, together with its subsidiary, Schering Sales Corporation,
      agreed to pay a total of $435 million to resolve criminal charges and civil liabilities in
      connection with illegal sales and marketing programs for its drugs Temador, used in the
      treatment of brain tumors and metastasis, and Intron A, used in the treatment of superficial
      bladder cancer and hepatitis C.

      Schering Sales Corporation agreed to plead guilty to charges that it conspired with others
      to make false statements to the FDA in response to the FDA’s inquiry concerning certain
      illegal promotional activities by the company’s sales representatives at a national
      conference for oncologists. Schering Sales also agreed to plead guilty to charges that it
      conspired with others to give free Claritin Redi-Tabs to a major health maintenance
      organization (HMO) to disguise a new lower price being offered to the HMO to obtain its
      business.

                                               11

     As part of the civil resolution, Schering-Plough Corporation agreed to pay $255,025,000
     to resolve civil False Claims Act liabilities and liabilities under the Food Drug and
     Cosmetic Act in connection with illegal sales and marketing programs for its drugs
     Temodar for use in the treatment of brain tumors and Intron A for use in treatment of
     superficial bladder cancer and hepatitis C. The civil resolution also resolves allegations of
     Medicaid Drug Rebate fraud involving Schering’s drugs Claritin RediTabs, and K-Dur,
     used in treating stomach conditions.

'	   King Pharmaceuticals, Inc., paid $75 million to resolve allegations that it underpaid
     rebates owed under the Medicaid program. King paid an additional $50 million to several
     state governments based on the same allegations. The settlement addressed King's alleged
     understatement of its drugs’ “average manufacturer price” and overstatement of its lowest
     available price or “best price”. For certain drugs, pharmaceutical companies are required
     to report their best price to Medicaid and to rebate the difference between the average
     manufacturer price and their best price. By understating the former and overstating the
     latter, King unlawfully reduced its obligation to pay rebates in violation of the Medicaid
     program.

'	   Eli Lilly and Company agreed to plead guilty and to pay $36 million in connection with its
     illegal promotion of its pharmaceutical drug Evista. In addition to the criminal plea, Lilly
     agreed to settle civil Food, Drug, and Cosmetic Act liabilities by entering into a consent
     decree of permanent injunction and paying the United States $24 million in equitable
     disgorgement.

     Evista is approved by the FDA for the prevention and treatment of osteoporosis in
     postmenopausal women. The Government alleged that the first year’s sales of Evista in
     the U.S. were disappointing compared to Lilly’s original forecast; the company reduced
     the forecast of Evista’s first year’s sales in the U.S. from $401 million to $120 million. In
     order to expand sales of the drug, it was alleged, Lilly sought to broaden the market for
     Evista by promoting it for off-label uses, such as for the prevention and reduction in risk
     of breast cancer, and the reduction in the risk of cardiovascular disease. Lilly promoted
     Evista as effective for reducing the risk of breast cancer, even after Lilly’s proposed
     labeling for this use was specifically rejected by the FDA.

'	   Omnicare, Inc., the nation’s leading provider of pharmacy services to skilled nursing
     facilities and assisted living communities, in a case jointly investigated by the Department
     of Justice, several Federal law enforcement agencies and the National Association of
     Medicaid Fraud Control Units (NAMFCU), agreed to pay the United States and 42 states
     $49.5 million to settle Medicaid prescription-drug-fraud claims initiated by two
     whistleblowers. Omnicare substituted different versions of prescribed drugs (such as
     tablets for capsules) solely to inflate profits rather than for any legitimate medical reason,
     and, as part of the settlement, Omnicare has also entered into a CIA with the HHS/OIG
     that is designed to prevent this type of drug switch in the future.

                                               12

'	   Doing business as Glaxo SmithKline, SmithKline Beecham Corporation agreed to pay the
     Government $149 million plus interest and enter into a 5-year addendum to its existing
     CIA with the HHS/OIG. The settlement resolved allegations that the pharmaceutical
     manufacturer engaged in certain improper pricing and marketing practices for Zofran and
     Kytril, two antiemetic drugs used primarily in conjunction with oncology and radiation
     treatment.

Nursing Home Fraud

'	   Horizon West, Inc., and its wholly owned subsidiary, Horizon West Healthcare, Inc., have
     agreed to pay the United States $14.7 million to settle allegations that the companies
     violated the civil FCA by falsely inflating the number of nursing hours spent on Medicare
     patients. Horizon West runs a nursing home chain with approximately 30 facilities in
     California and Utah.

'	   American Healthcare Management, Inc., (AHM), its individual owners, and three
     affiliated nursing homes agreed to pay $1.25 million to settle allegations of submitting
     false and fraudulent nursing home billings to Medicare and Medicaid for poor quality of
     care. The United States alleged that due to staffing limitations, numerous residents of the
     nursing homes suffered from dehydration and malnutrition, went for extended periods of
     time without cleaning or bathing, and contracted preventable pressure sores. In addition,
     instances of elopements of residents from the facilities occurred, a resident was found
     covered with ants, and a resident was physically abused by a staff member. As part of the
     settlement, AHM and the three nursing homes agreed to permanent exclusions, and the
     principal owner agreed to a 20-year exclusion. The other owner agreed to certify annually
     that he had no involvement in Medicare or Medicaid, and that if he did opt to bill those
     programs, he agreed that he would enter into a CIA at that time.

'	   Life Care Centers of America, Inc., (LCCA) the operator of a Georgia-based skilled
     nursing facility known as Life Care Center of Lawrenceville (Lawrenceville), along with
     Lawenceville’s owners Gwinnett Medical Investors Limited Partnership, Developers
     Investment Company, Inc., and the founder of LCCA, agreed to pay a total of $2.5 million
     to resolve multiple allegations of FCA violations for billing for services that either were
     not provided to the Lawrenceville residents or were deficient. The complaint, originally
     filed by five whistleblowers in November 2002, alleged a systemic failure by
     Lawrenceville to provide appropriate nursing care to its residents and also alleged that
     such failure resulted in the premature deaths of several residents. It was alleged that the
     failure of care was the result of severe under staffing, inadequate staff training, high staff
     turnover, an ineffective medical director, poor nursing documentation, and insufficient
     budgetary allowances. The whistleblowers all had family members who were residents at
     Lawrenceville.



                                              13

      LCCA and Lawrenceville entered into a CIA which, among other things, required the
      appointment of an independent monitor who will oversee operations at Lawrenceville for
      up to five years to verify that patients receive appropriate care. LCCA also agreed to
      apply the policies and procedures implemented for Lawrenceville to LCCA’s other
      facilities across the country.

'	    USA Healthcare, Inc., (USAH) the owner of several skilled nursing facilities based in
      Cullman, Alabama, settled allegations of overcharging Medicare by agreeing to pay the
      United States $1.2 million. The investigation arose out of an audit of cost reports filed by
      several of USAH’s skilled nursing facilities which revealed that the company violated
      Medicare rules by failing to disclose that certain vendors were related to USAH by
      common ownership or control and therefore should have been reimbursed by Medicare at
      a lower rate based on actual costs and without inclusion of profit.

Durable Medical Equipment Fraud

'	    In Houston, a jury convicted a Texas osteopath on 13 counts related to health care fraud.
      The osteopath was sentenced to 10 years in prison, and ordered to pay $7.9 million in
      restitution to Medicare and Medicaid. The osteopath never obtained a license to practice
      in Texas. Nevertheless, over a 2-year period beginning in 2002, the osteopath signed
      pre-printed prescriptions and certificates of medical necessity (CMNs) for motorized
      wheelchairs in exchange for payments from marketers of durable medical equipment
      (DMEs). The osteopath rarely examined the Medicare and Medicaid beneficiaries in
      whose names the prescriptions and CMNs were prepared. The marketers, in turn, sold the
      signed documents to DME suppliers in Texas and elsewhere. The osteopath’s fraudulent
      activity has been linked to nearly $8 million in Medicare and Medicaid payments.

'	    In Tennessee, an individual was sentenced to 23 months in prison and ordered to pay $1.8
      million in restitution for his role in a scheme to defraud Medicare. As the self-described
      “ring leader,” the defendant recruited friends and family members to establish DME
      suppliers with different names. These suppliers billed Medicare for enteral nutrition
      products that were never actually provided to any beneficiaries. In some instances, the
      suppliers provided only flavored milk products to the elderly but billed Medicare as if the
      companies were providing enteral nutrition. This defendant was the seventh
      co-conspirator to be convicted as a part of “Project Milk Man.”

'	    In Texas, the owner of a DME supplier plead guilty and was sentenced to 63 months in
      prison for the fraudulent billing of expensive motorized wheelchairs and other DME. The
      owner paid recruiters to collect Medicare and Medicaid beneficiary numbers and other
      information in Texas and in surrounding states. The owner then used the patient
      information to bill Medicare or Medicaid for DME, while providing less expensive
      products to the named beneficiaries, or none at all. Through this scheme, the owner was
      paid $1.6 million by Medicare and Medicaid. In addition to the prison sentence, the
      owner was ordered to pay $669,000 in restitution.

                                               14

'	   In Florida, a licensed orthotist and a patient recruiter were sentenced for conspiring to
     commit health care fraud involving eight Miami-based medical organizations. The
     orthotist was sentenced to 28 months in prison and ordered to pay $1.8 million in
     restitution for providing DME suppliers with signed CMNs and prescriptions for orthotic
     devices without having examined the named Medicare beneficiaries. He paid the
     beneficiaries for the misuse of their personal information. The DME companies then
     billed for expensive custom-fitted devices, but provided only prefabricated devices. The
     patient recruiter was sentenced to 22 months in prison and ordered to pay approximately
     $4.2 million in restitution.

'	   Beverly Enterprises, Inc., agreed to pay the United States and the state of California $20
     million to settle allegations that its former wholly-owned subsidiary, MK Medical,
     submitted false claims to the Medicare and Medi-Cal programs from 1998 until 2002,
     while Beverly owned the company. MK Medical, a now-defunct wholesaler of DME,
     allegedly billed Medicare and Medi-Cal for DME provided to the programs’ beneficiaries
     without obtaining the proper medical documentation. Beverly has agreed to settle these
     allegations by paying $14.5 million to the United States and $5.5 million to the state of
     California.

'	   The owner of a power wheelchair store was sentenced to 63 months in prison and ordered
     to pay over $4 million in restitution to the Medicare and Medicaid programs after he was
     convicted by a jury of paying recruiters to take beneficiaries to a medical clinic where a
     physician would perform medically unnecessary procedures and then sign false CMNs
     authorizing the beneficiaries to receive motorized wheelchairs. The physician also was
     sentenced to 11 years and three months in prison for his participation in the scheme, for
     receiving payment for signing the CMNs, and for submitting claims for services that either
     weren’t performed properly, or were not performed at all.

'	   In Texas, the owner of a power wheel chair store, the owner’s brother and a physician
     were found guilty of paying and receiving illegal kickbacks, and money laundering after a
     four week jury trial in San Antonio. The owner paid recruiters to find Medicare
     beneficiaries. The owner then paid the physician to falsely certify medical necessity of
     scooters or K0011 power wheelchairs. The owner would then fraudulently bill the
     Medicare program for reimbursement regardless of what, if any, equipment had been
     provided. Under the scheme, the defendants billed Medicare in excess of $12 million.
     The owner was sentenced to 151 months, the owner’s brother received 66 months and the
     physician was sentenced to 54 months imprisonment.

'	   In the Southern District of Texas, a physician was sentenced to 10 years in prison for
     conspiring to defraud Medicare of $30 million in a wheelchair scam. The physician and
     the physician’s office manager sold CMNs and prescriptions for motorized wheelchairs
     and other durable medical equipment to certain marketers and suppliers for approximately
     $200 each. Nearly all of the physician’s “patients” were ineligible for these items. They
     also sold prescriptions for controlled substances that were outside the normal course of

                                             15

      medical practice and were not medically necessary. They wrote 17,086 such prescriptions
      and received no less than $1.7 million in cash.

'	    In the Southern District of Texas, the owner of a Houston-based DME company was
      sentenced to 63 months in prison for the owner’s role in a motorized wheelchair scam.
      The company fraudulently billed Medicare and Medicaid for almost $5 million and
      defrauded these health care programs of at least $1.6 million.

Ambulance Services Fraud

'	    In North Carolina, an ambulance company and its owner were convicted of billing
      Medicare and Medicaid for dialysis patient transports that were not medically necessary.
      The owner was sentenced to 120 months in jail for health care fraud and to an additional
      31 months in jail for obstruction. The company and the owner were also ordered to pay
      $604,000 in joint-and-several restitution. The company owner instructed emergency
      medical technicians to enter information on ambulance reports that falsely indicated that
      patients required transportation by ambulance when, in fact, they could have been
      transported by other means. To conceal this activity, the owner and the billing manager
      altered records to indicate medical necessity. The billing manager was previously
      sentenced and was ordered to pay $30,000, a portion of the joint-and-several restitution
      amount.

'	    American Medical Response Inc. (AMR), one of the nation’s largest ambulance providers,
      paid the United States over $9 million to resolve allegations that the company violated the
      FCA. The Government alleged that the ambulance company provided illegal inducements
      to hospitals in Texas in exchange for referrals. The settlement relates to allegations that
      AMR, based in Greenwood, Colorado, provided or offered inducements to Texas hospitals
      in the form of contracts known as “swapping arrangements.” Such contracts gave the
      medical facilities discounts on transports in exchange for the referral of patients upon their
      discharge from the hospitals.

Chiropractic Fraud

'	    A former Indiana chiropractor was sentenced to 12 years and 6 months in prison, and
      ordered to pay $1.5 million in restitution, for billing Medicare, Medicaid, and private
      insurers for medically unnecessary back braces. The former chiropractor would arrange
      for presentations at senior citizens centers and other locations, often recruiting children to
      distribute flyers advertising the presentation in return for movie tickets. At the
      presentations, the chiropractor would distribute the back braces, valued at less than $100
      each, to senior citizens and the indigent irrespective of need. The chiropractor would then
      bill government or private health insurers $1,300 for each brace.




                                                16

Podiatry Fraud

'	    An Illinois podiatrist was sentenced to death for the murder of a grand jury witness,
      sentenced to 78 months in prison for health care fraud, and ordered to pay $1.8 million in
      restitution. A jury convicted and condemned the podiatrist to death for murdering a
      woman days before she was expected to testify before the grand jury about the more than
      70 foot surgeries that were not performed that the podiatrist billed to Medicare.

'	    An Ohio podiatrist was sentenced to 78 months in prison for conspiring and scheming to
      defraud Medicare. Because the podiatrist defaulted on federal student loans, Medicare
      excluded the podiatrist in 2000, thus prohibiting billing Medicare for podiatry services.
      Despite this, the podiatrist continued to bill Medicare under a corporate name. The
      corporation used the names of former podiatry school classmates, including one who was,
      at the time, dying of cancer. None gave the podiatrist permission to use their names. In
      2002, the podiatrist persuaded the Government to lift the exclusion, and began billing
      Medicare for complex procedures, when only routine nail-trimming services were
      provided. In addition to prison time, the podiatrist was ordered to pay $528,000 in
      restitution.

Fraud by Physicians

'	    An Ohio pain management physician was sentenced to life in prison, plus an additional 20
      years, for two charges of health care fraud resulting in death in addition to other charges
      of health care fraud. The Ohio physician administered to all his patients unnecessary and
      painful “trigger-point” injections of Schedule II and III narcotics. Once addicted, his
      patients would return for weekly injections, and were often forced to contribute to a
      “malpractice insurance fund.” In two instances, the injections lead to fatal drug
      overdoses. The physician submitted $60 million in fraudulent bills to health care benefit
      programs, claiming he was performing multiple, complex epidural and nerve block
      injections when, in fact, he performed crude versions of lower cost trigger-point
      injections. In addition to the prison sentence, he was ordered to pay $14.3 million in
      restitution to Medicare, Medicaid, and the Ohio Bureau of Workers Compensation. The
      health care fraud resulting in death case was recognized as the Investigation of the Year
      for 2006 by the National Health Care Anti-Fraud Association.

'	    A Tennessee oncologist was sentenced to over 15 years imprisonment for defrauding
      Medicare, TennCare and BlueCross BlueShield at the expense of cancer patients. The
      defendant administered diluted versions of chemotherapy medications to patients, and
      instructed nurses to draw up partial doses of other medications to administer to patients.

'	    From 1996 through 2003, a physician employed an individual to work at the physician’s
      medical practice in Connecticut. Although the individual was not licensed to practice
      medicine, the individual nonetheless treated patients in the physician’s medical practice.
      During this time, the individual was referred to as "Doctor" by the physician and wrote
                                               17

      prescriptions. The physician then billed insurance companies for services that were
      rendered by the individual, representing them as services rendered by a physician. They
      both pled guilty to conspiracy to commit health care fraud and was sentenced to two
      months of imprisonment, four months of home confinement and three years of supervised
      release. The physician also entered into a civil settlement with the Government and paid
      $160,000.

'	    A jury convicted a Manhattan dermatologist for unlawfully distributing prescription
      narcotics and for health care fraud. The dermatologist was sentenced to 20 years
      imprisonment and was ordered to pay $880,000 in restitution. From 1992 to 2002, the
      dermatologist engaged in a pattern of fraudulent behavior that ultimately lead to the death
      of one individual. The dermatologist paid kickbacks, often in the form of medically
      unnecessary prescriptions for controlled or addictive substances, to induce beneficiaries to
      continue returning to his office. The dermatologist would then bill Federal or private
      health plans for the visit and for services not provided. The dermatologist filed almost
      2,000 claims for surgeries allegedly performed on a single patient, ultimately receiving
      $425,000 in reimbursements. By submitting these claims, the dermatologist certified that,
      among other procedures, 1,300 4 centimeter incisions were performed in this one patient’s
      face. Ultimately, this individual’s participation in the scheme proved fatal, as the patient
      overdosed on Dilaudid and Carisprodol, which were regularly obtained from the
      dermatologist.

Fraud by Other Practitioners

'	    In Illinois, a dentist was sentenced to 63 months in prison and ordered to pay $827,000 in
      restitution and a $20,000 fine. The dentist was found guilty in a jury trial on charges of
      mail fraud and health care fraud. The dentist performed unnecessary dental procedures on
      patients and billed for services not performed or not performed as indicated.

'	    The owner of Indiana-based dental practice, The Smile Center, and the owner’s mother
      pled guilty to health care fraud. It was alleged that The Smile Center defrauded the
      Indiana Medicaid Program by billing for services that were either not medically necessary
      or were not provided at all, and for coding services to appear as if they were covered by
      Medicaid when they were not. Their scheme resulted in losses of over $1.8 million which
      the defendants agreed to repay in a related civil settlement.

'	    A Kansas couple was convicted on Federal charges for involuntary servitude, forced labor,
      conspiracy, health care fraud, and mail fraud. The social worker and his wife, a nurse,
      were sentenced to 30 years and 7 years in prison, respectively, and ordered to pay
      approximately $500,000 in joint-and-several restitution. In addition, the jury ordered the
      couple to forfeit approximately $85,000 and four properties. For over 24 years, the couple
      operated a group home that provided “therapy” for mentally ill patients. The investigation
      revealed that the social worker forced and coerced his patients to perform manual labor in
      the nude and participate in therapy sessions that involved sexually explicit acts. The

                                               18

      man’s wife helped enforce house rules and fraudulently billed Federal health care
      programs.

'	    A California audiologist was sentenced to 78 months in prison for defrauding Medicare
      and Medi-Cal. From January 1997 through July 2003, the audiologist billed Medicare and
      Medi-Cal for hearing aids, speech therapy, and other related services without being
      licensed to dispense or render the service and, in most cases, without a prescription from a
      referring physician. The audiologist also billed for services purportedly provided to
      deceased beneficiaries. In addition to the prison sentence, the audiologist was ordered to
      pay $868,000 in restitution.

Infusion Therapy

'	    In FY 2006, the United States Attorney for the Southern District of Florida, the Civil
      Division, the FBI, the HHS/OIG, CMS, and Florida state enforcement agencies worked
      together in a federal-state fraud task force to aggressively address the problem of fraud by
      human immunodeficiency virus (HIV) and other specialized medical clinics in South
      Florida. Over the year, twenty-three defendants were charged in matters relating to fraud
      arising in clinics ostensibly providing infusion therapy to persons with HIV. The
      investigation determined that in many instances the so-called clinics were nothing more
      than mailing addresses where no medical services were provided. It determined also that,
      in some instances, beneficiaries were paid modest sums to attend clinics and undergo
      infusion therapy that later was billed to Medicaid or Medicare. The task force utilized the
      Miramar Health Care Facility, a Department of Justice document storage and investigative
      support facility located in Broward County, Florida. The following are illustrative of the
      cases brought:

             A physician and his medical assistant in Miami, and three other defendants who
             participated in a health care fraud scheme involving a Miami HIV/AIDS clinic,
             were convicted after a jury trial and sentenced to imprisonment for billing
             Medicaid $1.3 million for medications and treatments that were not administered
             to Medicare beneficiaries with HIV and for paying the beneficiary patients
             kickbacks to attend the clinic.

             Two employees of Project New Hope, a medical clinic located in Miami that
             claimed to specialize in the treatment of Medicare beneficiaries with HIV, were
             found guilty by a jury for participating in a fraudulent scheme that billed at least
             $2.8 million in medications that most of the beneficiaries did not receive, and for
             paying kickbacks to the beneficiaries to get them to attend the clinic. Five other
             defendants pled guilty before trial.




                                               19

Medicare Secondary Payer6

'	    Highmark, Inc., settled allegations that the Pennsylvania insurance company underpaid the
      amounts due for the care of certain Medicare beneficiaries under the employer group
      health plans administered by the company. Highmark voluntarily conducted a review to
      capture actual employee count data from its customer employers for purposes of
      determining whether Medicare should be the primary or secondary payer. Based on the
      results of this review, Highmark refunded $2.5 million to Medicare. Highmark also paid
      an additional amount of approximately $2 million to the Government and agreed to
      implement a model Medicare Secondary Payer (MSP) program to address how data
      regarding employee counts is captured and utilized. The terms of the settlement require
      that an independent organization will verify that Highmark establishes and maintains MSP
      procedures consistent with the model.

Child Vaccine Programs
'	    Operation Free Shot focuses on Connecticut health care providers who bill Medicaid and
      other insurance programs for childhood vaccines the providers received free-of-charge
      from the Vaccines For Children (VFC) program, a joint Federal and state program that
      provides childhood immunizations. Under the VFC Program, doctors and other health
      care providers receive free vaccines distributed by the Department of Public Health and
      agree not to bill Medicaid or any other third-party for the cost of the vaccines. The
      provider may recover a minimal fee for administrative costs associated with inoculating a
      child. Overall, there have been seven civil settlements and two criminal convictions, with
      a total recovery of in excess of $2 million, and in FY 2006 there were two civil
      settlements against a physician and Winstead Pediatrics in the amount of $430,000.


'	    The District of Utah also has investigated the VFC program and has entered into four
      settlements with providers over the last three years and one in FY 2006 against a
      physician in the amount of $53,000.


Drug Diversion and Internet Pharmacy Fraud
'	    An Arizona resident obtained more than 27,000 pills, mostly Percocet and Oxycodone,
      from 51 Tucson area pharmacies using forged signatures. The individual pled guilty to
      health care fraud and other felonies of conspiracy, possession with intent to distribute a
      controlled substance, possession of a controlled substance by misrepresentation, fraud,
      forgery, deception and subterfuge, and fraud in connection with identification documents.


       6
         Medicare is a secondary payer of medical costs for its beneficiaries who are current
employees of an employer with 20 or more employees, or of an employer of 19 or fewer
employees who is a member of a multiple employer plan or a group health plan (GHP) who has
at least 1 member with 20 or more employees. Medicare dictates that the employer or GHP, not
Medicare, is responsible for primary payment of the claims.
                                              20
'	   A Minnesota resident was convicted by a jury of illegally selling prescription drugs and
     controlled substances over the Internet. The individual was responsible for the
     distribution of more than two million units of Schedule III controlled substances with a
     value of approximately $24 million. Five other individuals, including the prescribing
     physician, have also pled guilty to Federal felonies and are awaiting sentencing.


'	   Seventeen individuals and thirty-seven corporations pled guilty in San Antonio to, among
     other things, health care fraud, distribution and possession with intent to distribute a
     controlled substance, and money laundering. The indictment alleged that the defendants
     sold controlled substances, including hydrocodone, phentermine hydrochloride,
     alprazolam, and promethazine cough syrup containing codeine, over the Internet without
     any controls. It was alleged that more than $200 million in pharmaceuticals was
     fraudulently purchased from commercial pharmaceutical wholesalers and diverted for
     fraudulent and illegal distribution.


'	   A Florida pharmaceutical wholesale distributor with offices in Miami, Savannah, and
     elsewhere, bought and sold millions of dollars of fraudulently obtained prescription drugs,
     including drugs already paid for by the Florida and California state Medicaid Programs;
     drugs defrauded from the Immune Deficiency Foundation's Safety Net Program; and drugs
     defrauded from several pharmaceutical manufacturers and distributors. The defendants
     were convicted for the unlawful purchase and sale of prescription drugs, primarily blood
     derivatives used in the treatment of cancer, AIDS, hemophilia and other critical care
     illnesses. The defendants received sentences as high as 300 months in prison, fines as
     high as $5 million, and were ordered to pay $27.8 million in restitution.


'	   In the Southern District of Texas, an individual pled guilty to counterfeit labeling and
     false trademarks on pharmaceutical drugs. Eleven individuals, including the defendant’s
     alleged supplier, were arrested in China and charged with manufacturing and distributing
     counterfeit Viagra, Cialis and Lipitor. Subsequent searches resulted in the seizure of
     equipment used to process counterfeit pharmaceuticals, 600,000 counterfeit Viagra labels
     and packaging, 440,000 counterfeit Viagra and Cialis tablets, and 260 kilograms of raw
     materials used to manufacture counterfeit pharmaceuticals.


'	   In the Western District of New York, a pharmacist pled guilty in connection with the theft
     of approximately $1,875,000 in public and private health care insurance funds. The
     pharmacist submitted claims to Medicaid and private health insurers for prescription
     refills that were not authorized by the prescribing physician; name brand drugs when the
     generic drug was provided; prescriptions that were never actually filled; and other
     fraudulent prescriptions.


'	   In the Northern District of Iowa, two doctors employed by a corporation that owned
     Internet pharmacy web sites were each sentenced to 20 months in prison for conspiring to

                                             21

      dispense Schedule III and Schedule IV controlled substances without a legitimate medical
      purpose and outside the usual course of medical practice. Another conspirator was
      sentenced to three years of probation, with a six-month term of home confinement as a
      special condition. The defendants admitted they were employed by the corporation to
      review the questionnaires and approve the prescription drug requests though none had
      ever examined any of the “patients” before prescribing thousands of dosage units of
      Schedule III controlled substances, usually pain narcotics.


Hospice Fraud


'	    Odyssey HealthCare, a national hospice provider, paid the United States $12.9 million to
      settle allegations that the company submitted false claims to Medicare. The Dallas-based
      company is alleged to have billed Medicare for services provided to hospice patients who
      were not terminally ill and therefore were ineligible for the Medicare hospice benefit. The
      settlement, which covers a period from 2001 to 2005, also resolves charges originally
      brought against Odyssey HealthCare in a qui tam action brought by a former regional vice
      president. As part of the settlement, the former vice president will receive $2.3 million for
      bringing the matter to the attention of the Government. Odyssey HealthCare also entered
      into a CIA with the HHS/OIG. The CIA addresses the company’s practices regarding
      compliance with applicable Medicare regulations.


'	    Faith Hospice, Inc., settled allegations that it submitted fraudulent claims to Medicare and
      Medicaid for hospice care. The investigation was initiated when a review of a sample of
      Faith Hospice’s medical records showed that more than half of its patients were ineligible
      for hospice care. Under the agreement, the owner and Faith Hospice forfeited
      approximately $599,000 to the United States, one half of the funds seized pursuant to the
      civil forfeiture action.


Kickbacks

'	    Lincare Holdings, Inc., and its subsidiary, Lincare, Inc. (collectively, Lincare), agreed to
      pay the Government $10 million and to enter into a 5-year company-wide CIA. The
      settlement resolves allegations that Lincare violated the anti-kickback provision of the
      Civil Monetary Penalties Law (CMPL) and the Physician Self-Referral Law. The
      HHS/OIG alleged that from January 1993 through December 2000, Lincare engaged in a
      nationwide scheme to pay remuneration to physicians to induce referrals of patients to
      Lincare for DMEs. The HHS/OIG alleged that Lincare gave referring physicians items
      such as sporting and entertainment tickets, gift certificates, golf rounds and equipment,
      fishing trips, meals, advertising expenses, office equipment, and medical equipment, as
      well as payments pursuant to purported consulting agreements. The HHS/OIG also
      alleged that Lincare violated the Physician Self-Referral Law by accepting referrals from
      parties to the purported consulting agreements.

                                               22

'	   Medtronic, Inc., agreed to pay the United States $40 million to settle civil allegations that
     its Medtronic Sofamor Danek division (MSD) paid kickbacks to doctors to induce them to
     use MSD’s spinal products. The Government alleged that, between 1998 and 2003,
     Medtronic paid illegal kickbacks in a number of forms, including sham consulting
     agreements, sham royalty agreements and lavish trips to desirable locations. The
     Government’s investigation was triggered by the filing of a qui tam action.

'	   Marion Regional Health Care System agreed to pay the United States $3.75 million to
     resolve allegations of health care fraud against the Government. The settlement resolves
     allegations that Marion County Medical Center submitted false claims to Medicare,
     Medicaid and TRICARE by engaging in financial relationships with certain physicians
     that were prohibited under the Physician Self-Referral Law and/or the Anti-kickback
     Statute. Specifically, the settlement focuses on the compensation Marion paid to two
     physicians which the United States contends far exceeded the fair market value of the
     services provided by those physicians and was not commercially reasonable. The
     settlement also resolves allegations that Marion submitted claims to Medicare for
     professional services for initial hospitalizations which were coded at a level higher than
     the services that were provided. The United States initiated the investigation in response
     to a whistleblower action brought by a former employee of Marion.




                                              23

Page intentionally left blank





             24

   FUNDING FOR THE DEPARTMENT OF HEALTH AND
                HUMAN SERVICES

                                Office of Inspector General

Certain of the funds appropriated under HIPAA are, by law, set aside for Medicare and Medicaid
activities of the HHS/OIG. In FY 2006, The Secretary and the Attorney General jointly allotted
$160 million to the HHS/OIG which is the statutory maximum permitted under HIPAA.

The HHS/OIG participated in investigations or other inquiries that resulted in 744 prosecutions or
settlements in FY 2006, of which 567 or 76% percent were health care cases. A number of these
are highlighted in the Accomplishments section. During FY 2006, the HHS/OIG also excluded a
total of 3,422 individuals and entities, barring them from participating in Medicare, Medicaid, and
other Federal and state health care programs. In addition, the Department of Health and Human
Services collected more than $378.4 million in disallowances of improperly paid health care
funds, based on HHS/OIG recommendations.

Program Savings

Frequently, investigations, audits and evaluations reveal vulnerabilities or incentives for
questionable or fraudulent financial practices in agency programs or administrative processes. As
required by the Inspector General Act, the HHS/OIG makes recommendations to agency
managers to address these vulnerabilities. In turn, agency managers recommend legislative
proposals or other corrective actions that, when enacted or implemented, close loopholes and
reduce improper payments or conduct. The net savings from these joint efforts toward program
improvements can be substantial. During FY 2006, the HHS/OIG estimates that such corrective
actions resulted in health care savings (i.e., funds put to better use as a result of implemented
legislative or other program initiatives) of approximately $34 billion -- $25.52 billion in Medicare
savings, and $8.48 billion in savings to the Medicaid program. Additional information about
savings achieved through such policy and procedural changes may be found in the HHS/OIG
Semiannual Report, on-line at http://oig.hhs.gov/reading/semiannual.html.


Exclusions


One important mechanism for safeguarding the care provided to program beneficiaries is through
exclusion of providers and suppliers who have engaged in patient abuse or neglect or fraud.
During FY 2006, the HHS/OIG excluded a total of 3,422 individuals and entities. Among these
were exclusions based on criminal convictions for crimes related to Medicare or Medicaid (605),
or to other health care programs (245); for patient abuse or neglect (295); or as a result of
licensure revocations, suspensions or surrenders (1,868). This list is not meant to be exhaustive,


                                                25

but identifies the most prevalent causes underlying the HHS/OIG’s exclusions of individuals
or entities in FY 2006. Among those excluded by the HHS/OIG from participation in Medicare,
Medicaid, and other Federal health care programs were the following:

'      South Beach Community Hospital (formerly South Shore Hospital and Medical Center)
       was excluded from participation in Medicare, Medicaid, and other Federal health care
       programs. The exclusion resulted from South Beach’s material breach of the terms of a
       CIA the hospital negotiated with the HHS/OIG in 2002 as part of the resolution of a FCA
       case against the hospital. The HHS/OIG determined that South Beach was in material
       breach for its repeated failure to submit timely, complete, and accurate required reports,
       and its failure to implement fully the Independent Review Organization requirements of
       the CIA. South Beach also neglected to notify the HHS/OIG, as required under the CIA,
       of its sale to new owners, who are also subject to the terms of the CIA. The HHS/OIG
       determined that South Beach’s “repeated and egregious failure” in this case to abide by
       the terms of its CIA required the HHS/OIG for the first time to seek exclusion for such a
       violation.

'      A registered nurse was excluded for a minimum of 60 years based on her conviction for
       deliberately and intentionally causing the death of a home health patient under her care,
       and for using the victim’s credit card to obtain cash and make purchases. The registered
       nurse was ordered to serve a life sentence without parole for first-degree homicide. In
       addition, she was sentenced to 30 years for aggravated robbery against an at-risk adult, 6
       years for theft, and 3 years for unauthorized use of a credit card.

'      Another nurse was excluded for a minimum period of 25 years based on his conviction for
       rape. While providing in-home care, the nurse engaged in sexual intercourse with a
       female patient incapable of giving consent. The victim is a quadriplegic who is
       developmentally disabled and suffers from spastic cerebral palsy. The nurse was
       sentenced to 102 months incarceration and the state revoked his nursing license.

'      A pharmacist was excluded for a minimum period of 5 years based on his conviction on
       multiple counts of battery. During a 15-month period, the pharmacist falsely represented
       that he was participating in a blood study. The pharmacist paid between $10 and $20 per
       blood sample, which he obtained from women in the community. The pharmacist drew
       their blood in the pharmacy after hours, in the pharmacy parking lot, in his home, or at the
       victims’ homes.


Other Administrative Enforcement Actions – Civil Monetary Penalties


The Office of Inspector General has authority to impose civil monetary penalties (CMPs) against
providers and suppliers who knowingly submit false claims to the Government, who participate in
unlawful patient referral or kickback schemes, who fail to appropriately treat or refer patients who


                                                26

present at hospital emergency rooms, or who engage in other activities prescribed in statute. The
HHS/OIG has stepped up its affirmative enforcement actions under these authorities. The Lincare
case discussed previously is one example. Others are:

'	     University of Medicine and Dentistry of New Jersey (UMDNJ) agreed to pay $2 million
       to resolve its liability under the HHS/OIG Civil Monetary Penalties Law (CMPL)
       provisions applicable to false and fraudulent claims. The HHS/OIG alleged that UMDNJ
       employed two individuals that UMDNJ knew or should have known had been excluded
       from participation in Federal health care programs. As part of the agreement, UMDNJ is
       required to submit to the HHS/OIG an annual certification for three years attesting that
       they have in place a policy for screening all current and prospective employees and
       contractors to ensure that they are not excluded.

'	     After it self-disclosed conduct to the HHS/OIG, Inova Health Care Services d/b/a Inova
       Fair Oaks Hospital (Inova) agreed to pay $714,000 and to enter into a certification of
       compliance agreement to resolve its liability under the CMPL provisions applicable to
       kickback and self-referral law violations. The HHS/OIG alleged that from 1998 to 2004,
       Inova subleased space in one of its medical office buildings to physicians at rental rates
       that were below the fair market value. In one instance, a physician benefitted
       substantially by not paying rent from 1999 through 2004.


Studies, Audits, and Evaluations


The HHS/OIG conducts numerous studies, audits and evaluations that disclose improprieties in
Medicare and Medicaid, and recommends corrective actions that, when implemented, correct
program vulnerabilities and save program funds. Among these were:

Nursing Home Evacuation Planning and Execution

'	     The HHS/OIG examined nursing home evacuation planning and executions at the request
       of the Senate Special Committee on Aging after the catastrophes in the gulf states
       precipitated by Hurricanes Katrina and Rita raised concerns about the adequacy of both
       nursing home evacuation plans and of the coordination efforts among facilities and
       State/local authorities. Nursing home residents and their families rely on nursing home
       management to plan for and execute appropriate evacuation procedures during times of
       disaster. Medicare and Medicaid regulations require that participating nursing facilities
       have detailed, written plans to meet all potential emergencies and disasters, and that the
       facilities train their employees in such plans. This study responds to the Committees
       request and also continues the ongoing work of OIG to monitor the health and safety of
       nursing home residents. The study assessed whether selected nursing homes, all located
       in the four gulf states affected by recent hurricanes, complied with Federal requirements to
       develop and practice emergency preparedness plans and whether the plans included

                                               27

      evacuation of residents. The report also examined the extent to which plans were executed
      by facilities that evacuated or considered evacuation during the recent disasters. After
      finding that all of the selected nursing homes experienced difficulty executing their
      emergency preparedness plans, the OIG recommended that CMS consider strengthening
      Federal certification standards for nursing home emergency plans, and consider
      encouraging communication and collaboration between state and local emergency entities
      and nursing homes. CMS concurred with both recommendations and has improvement
      efforts underway, including the creation of a Survey and Certification Provider Emergency
      Preparedness Stakeholders Group and implementation of a Survey and Certification
      Provider Emergency Preparedness Regulation and Guidance resource website.

Upper Payment Limit Calculations

'	    The HHS/OIG audited four states’ upper payment limit (UPL) payments to determine
      whether states calculated the UPLs for hospitals and nursing facilities in a manner
      consistent with Federal requirements. The UPL is based on an estimate of the amount that
      would be paid for Medicaid services under Medicare payment principles. The HHS/OIG
      found that the Medicaid programs in Alabama, Indiana, Mississippi, and New York did
      not comply with Federal regulations governing the calculation of UPLs, and
      recommended that three of the four states refund a total of $72.2 million in unallowable
      Medicaid payments that resulted from the states’ errors. Further, the HHS/OIG
      recommended that two of the states, Alabama and Mississippi, work with CMS to resolve
      an additional $219 million in potential Federal overpayments.

Medicaid Hospital Outlier Payments

'	    Some states make outlier payments to hospitals when the cost of treating a Medicaid
      inpatient is extraordinarily high compared with the average cost of treating comparable
      conditions. The HHS/OIG reported on five states’ methods of computing outlier
      payments: New York, North Carolina, Ohio, Pennsylvania and Texas. In New York and
      Pennsylvania, the HHS/OIG found that although the states’ outlier computation
      methodologies were reasonable, they relied on inaccurate or obsolete cost-to-charge
      ratios. In the remaining three states, the HHS/OIG found that the methodologies
      employed did not result in reasonable outlier payments. The HHS/OIG recommended to
      all five states that they prospectively address the vulnerabilities identified in the audit
      reports.

Medicaid Targeted Case Management Services

'	    The Social Security Act authorizes state Medicaid agencies to provide case management
      services to Medicaid beneficiaries. The Act defines case management services as services
      that assist a beneficiary in gaining access to needed medical, social, educational, or other
      services. CMS further defined such services to include assessment of service needs,
      development of care plans, referral to needed services, and monitoring and follow-up. The
                                                28

       HHS/OIG audited Massachusetts’s claims for Federal matching for the cost of its
       Medicaid case management services. It found that the state overstated its claims by,
       among other things, including the cost of direct services, rather than merely case
       management services. The HHS/OIG recommended that the state refund approximately
       $87 million to the Federal Government, and work with CMS to determine the allowability
       of an additional $26.6 million ($13.5 million Federal share) in potentially improper case
       management claims.

Medicaid School-Based Services. The HHS/OIG continued its focus on states’ claims for
school-based Medicaid services. The Medicaid program allows Medicaid reimbursement for
covered health-related services in a school setting. Local education agencies (LEAs) bill the costs
for these services to the states, which in turn bill them to Medicaid. The HHS/OIG conducted
audits on various aspects of school-based claiming practices in New Jersey, Texas and Kansas.

'	     In New Jersey, the HHS/OIG found that 109 of 150 sampled school-based claims did not
       comply with the Federal and state requirement that eligible school children receive
       speech, physical, and occupational therapy services and nursing services only pursuant to
       a health professional’s prescription. The HHS/OIG recommended that New Jersey refund
       to CMS the approximately $51 million in unallowable school-based Medicaid costs.

In Texas, the HHS/OIG conducted two audits:

'	     In the first audit, the HHS/OIG found that 991 of 2,175 sampled claims for school-based
       services were unallowable for various reasons, such as missing prescriptions, claims for
       non-reimbursable services, missing individual education plans, failure to meet
       transportation requirements, and others. As a result, the HHS/OIG recommended that the
       state refund $8.7 million.

'	     In the second review, the HHS/OIG found that a consortium of Texas LEAs claimed
       Medicaid school-based administrative costs that were not reasonable, allowable, or
       adequately supported. Such costs included unallowable personnel costs, unallowable
       operating costs, and overstated costs. In addition, the consortium incorrectly allocated
       costs and did not offset costs with revenues received from other sources. The HHS/OIG
       recommended that the state refund the $2.4 million in costs that the HHS/OIG identified
       as unallowable.

In Kansas, the HHS/OIG conducted three audits:

'	     In the first audit, the HHS/OIG examined the bundled rate that the state used to both
       reimburse LEAs for the costs of providing school-based services and also to claim such
       costs from the Federal Government. The HHS/OIG found that the state misapplied the
       state’s own methodology, which was based on the average cost of providing services over

                                                29

       a nine-month period (a school year). Instead, the state calculated the rate based on the
       cost of providing services over a full year. The HHS/OIG recommended that the state
       refund $13.9 million in overpayments.

'      In the second audit, the HHS/OIG sampled 300 claims for 3 school districts. Of these,
       217 were unallowable because they were either for services that were not provided or for
       services that required a prescription, but for which there was none. The HHS/OIG
       recommended that the state refund the $5.1 million in claims that were unallowable for
       these reasons.

'      In the third audit, the HHS/OIG found that the state did not develop the payment rates for
       Medicaid school-based health services pursuant to Federal requirements and the state
       plan. The state used incorrect indirect cost rates and service utilization data to develop the
       payment rates. Based on these findings, the HHS/OIG recommended that the state refund
       $18.5 million to the Federal Government.

Medicaid Family Planning Services. The HHS/OIG also continued its oversight of states’
claims for the cost of providing Medicaid family planning services. Medicaid reimburses the
costs of family planning services at an enhanced Federal matching rate of 90 percent. The
HHS/OIG found that states did not always comply with Federal requirements when claiming
these costs.

'	     In Pennsylvania, the HHS/OIG found that the state included in its methodology for
       calculating family planning costs services that were not reimbursable as family planning
       services, such as child birth delivery, as well as family planning services that were
       provided to ineligible beneficiaries. The HHS/OIG recommended that the state refund to
       the Federal Government the resulting $15.1 million in overpayments.

Medicaid Provider Overpayments

'	     State Medicaid agencies are required to refund the Federal share of overpayments at the
       end of the 60-day period following the discovery of the overpayment. The HHS/OIG
       conducted reviews in Florida, New Jersey, and Montana to determine whether the states
       reported Medicaid overpayments in accordance with Federal requirements. The reviews
       found that the states did not report all overpayments and adjustments of overpayments as
       required. As a result, the HHS/OIG recommended that the states refund $23.8 million to
       the Federal Government.

Medicaid Disproportionate Share Hospitals. States are required to make Medicaid
disproportionate share hospital (DSH) payments to hospitals that serve disproportionate numbers
of low-income patients with special needs.


                                                30

'	    In a report summarizing reviews of DSH programs in 10 states (Alabama, California,
      Illinois, Louisiana, Missouri, North Carolina, Ohio, Texas, Virginia, and Washington), the
      HHS/OIG noted that 9 of the 10 states had not complied with the hospital-specific DSH
      limits. As a result of using historical rather than actual costs and including unallowable
      costs in the DSH calculations, DSH payments exceeded the hospital-specific limits by
      $1.6 billion. Also, three states required hospitals to return DSH payments of $3.6 billion
      to the states through intergovernmental transfers. Among other things, the HHS/OIG
      recommended that CMS ensure that the monetary recommendations to the states are
      resolved.

'	    DSH payments to a hospital in New Jersey exceeded the hospital-specific limits by $171.4
      million ($85.7 million Federal share) as a result of including ineligible amounts in the
      DSH calculations and claiming duplicate DSH expenditures. The HHS/OIG
      recommended that the state refund the $85.7 million to the Federal Government.

Drug Pricing

'	    In 2005, Medicare began paying for most Part B drugs using a new methodology based on
      average sales prices. The Act specifies the unit that manufacturers must use when
      submitting average sales price data. The Act also specifies the way to calculate a
      volume-weighted average sales price for a Medicare payment code based on
      manufacturer-reported average sales price data. However, CMS opted to change the unit
      of average sales price submission, exercising discretion permitted under the Act. It was
      therefore necessary for CMS to modify the method for calculating volume-weighted
      average sales prices described in the law. The HHS/OIG found that the method CMS
      currently uses to calculate a volume-weighted average sales price is mathematically
      incorrect. Therefore, CMS’s equation may not always yield a volume-weighted average
      sales price that is consistent with the volume-weighted average sales price derived from
      the calculation set forth in the Act. Because CMS calculates volume-weighted average
      sales prices incorrectly, current and future reimbursement amounts may not be accurate.
      The HHS/OIG recommended that CMS change its calculation of volume-weighted
      average sales prices.

'	    The Act also requires that the HHS/OIG notify the Secretary if the average sales prices for
      a particular drug exceeds the average manufacturer price (AMP) or widely available
      market price by a threshold of 5 percent. If that threshold is met, the Act grants the
      Secretary authority to disregard the average sales prices and substitute the payment
      amount for the drug with the lesser of the widely available market price (if any) for the
      drug or 103 percent of the available market price. The HHS/OIG recently completed the
      following three studies that compare average sales prices to AMP and widely available
      market price:

      Medicare Part B Drug Prices: A Comparison of Average Sales Prices to Average
      Manufacturer Prices. The HHS/OIG found that in the third quarter of 2004, 51 of the 364
                                          31

     procedure codes (14 percent) included in this review had an average sales price that
     exceeded the AMP by at least 5 percent. If reimbursement amounts for these 51 codes had
     been lowered to 103 percent of the AMP, Medicare expenditures would have been
     reduced by an estimated $164 million in 2005.

     Comparison of Fourth Quarter 2005 Average Sales Prices to Average Manufacturer
     Prices: Impact on Medicare Reimbursement for the Second Quarter of 2006. The
     HHS/OIG found that for 46 of the 341 procedure codes (13 percent) included in this
     review, average sales prices exceeded AMP by at least 5 percent in the fourth quarter of
     2005. Twenty of these codes were identified in the HHS/OIG’s previous report as having
     average sales prices that exceeded AMPs by at least 5 percent in the third quarter of 2004.
     If reimbursement amounts for the 46 codes had been based on 103 percent of the AMP,
     the HHS/OIG estimated that Medicare expenditures would have been reduced by $64
     million in 1 year.

     A Comparison of Average Sales Prices to Widely Available Market Prices: Fourth
     Quarter 2005. For this analysis, the HHS/OIG specifically selected a purposive sample of
     nine procedure codes for which the HHS/OIG suspected that average sales prices might
     exceed widely available market prices by at least 5 percent. The purposive sample was
     based on the results of the September 2005 HHS/OIG report on adequacy of
     reimbursement for cancer drugs. The HHS/OIG found that five of the nine procedure
     codes included in this review met or surpassed the 5-percent threshold defined by the
     Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA). For
     these 5 codes, the average sales prices exceeded the widely available market prices by a
     range of 17 to 185 percent. The HHS/OIG estimated that Medicare expenditures would be
     reduced by as much as $67 million in 2006 if reimbursement amounts were lowered to the
     widely available market prices for these five codes.

'	   The Medicaid drug rebate program requires manufacturers of prescription drugs to
     determine and report the AMP -- generally the average prices paid to the manufacturer by
     wholesalers for drugs distributed to retail pharmacies. Manufacturers pay rebates to states
     based on AMPs and other factors. The Deficit Reduction Act (DRA) of 2005 changed the
     manner in which drug manufacturers determine the AMP and required that the AMP be
     used in setting Federal upper payment limits for certain drugs under the Medicaid
     program. The DRA also directed the HHS/OIG to review the requirements for
     determining AMPs, and to make recommendations based on this review. The HHS/OIG
     found that some AMP requirements were unclear and that manufacturers’ methods of
     calculating AMPs were inconsistent. The HHS/OIG recommended that the Secretary
     direct CMS to clarify requirements for determining certain aspects of AMPs, consider
     addressing issues raised by industry groups, issue guidance that specifically addresses the
     implementation of the AMP-related reimbursement provisions of the DRA, and encourage
     states to analyze the relationship between the AMP and pharmacy acquisition costs to
     ensure appropriate pharmacy reimbursement.


                                             32

Medicare Hospital Wage Data

'	    Under the acute care hospital inpatient prospective payment system, CMS adjusts the
      Medicare base rate paid to participating hospitals by the wage index applicable to the area
      in which the hospital is located. The wage indexes are based on data that hospitals include
      in their Medicare cost reports. The HHS/OIG conducted numerous audits during FY 2006
      to determine whether hospitals complied with Medicare requirements for reporting wage
      data in their cost reports. The HHS/OIG found errors in the hospitals’ cost reports that
      reduce the accuracy of future wage indexes. Such errors included the misreporting of
      salaries and hours, contract labor costs and hours, and pension and post-retirement benefit
      costs. In each case, the HHS/OIG recommended that the hospital submit revised cost
      reports.

Graduate Medical Education for Dental Residents

'	    The Medicare program makes payments to teaching hospitals to support graduate medical
      education (GME) programs for physicians and other practitioners. The payments, which
      cover both direct and indirect GME costs, are based in part on the number of full-time
      equivalent (FTE) residents that the hospitals train. Hospitals are permitted to count dental
      residents who train in non-hospital settings in the hospitals’ calculations of indirect and
      direct GME costs. The HHS/OIG reviewed hospitals in Connecticut, Iowa, Kentucky,
      Massachusetts, Pennsylvania, California, Ohio, Virginia, New York, and Texas to
      determine whether they included the appropriate number of dental residents in their FTE
      counts when computing Medicare GME payments. All but two of the hospitals audited
      committed errors in the calculations of their FTEs, resulting in total overstatements in
      GME claims of approximately $14 million. In each case, the HHS/OIG recommended
      that the hospital amend its cost report to return the overpayment and ensure subsequent
      FTE calculations are accurate.

Industry Outreach and Guidance

'	    Advisory Opinions. Central to the HIPAA guidance initiatives is an advisory opinion
      process through which parties may obtain binding legal guidance as to whether their
      existing or proposed health care business transactions run afoul of the Federal anti-
      kickback statute, the CMP laws, or the exclusion provisions. During FY 2006, the
      HHS/OIG, in consultation with DOJ, issued 16 advisory opinions. A total of 148 advisory
      opinions have been issued during the first ten years of the HCFAC program.

'	    Corporate Integrity Agreements. Many health care providers that enter agreements with
      the Government to settle potential liabilities for violations of the FCA also agree to adhere
      to a separate CIA. Under these agreements, the provider commits to establishing a

                                               33

       program or taking other specified steps to ensure its future compliance with Medicare and
       Medicaid rules. At the close of FY 2006, the HHS/OIG was monitoring more than 390
       CIAs.


                       Centers for Medicare & Medicaid Services

In FY 2006, the Centers for Medicare & Medicaid Services (CMS) was allocated $22.3 million to
fund a variety of projects related to fraud, waste, and abuse in the Medicare and Medicaid programs.
CMS has increased its efforts to use advanced technology to detect and prevent fraud and abuse and
to ensure that CMS pays the right providers, the right amount, for the right service, on behalf of the
right beneficiary. Projects include:

Medicaid/State Children’s Health Insurance Plan (SCHIP) Financial Management Project:
Since FY 2004, CMS hired 100 funding specialists, including accountants and financial analysts,
who have worked to improve CMS’s financial oversight of the Medicaid program. The primary
goal for the Medicaid funding specialists during this fiscal year was to reduce cumulative
questionable reimbursement by 10 percent. Through the efforts of these specialists, CMS
identified and resolved $2.9 billion of approximately $8 billion in cumulative questionable costs.
Furthermore, an estimated $417 million in questionable reimbursement was actually averted due
to the funding specialists’ preventive work with states to promote proper state Medicaid financing
methods prior to implementation. The funding specialists activities have included reviews of
proposed Medicaid state plan amendments that relate to reimbursement; development of financial
management reviews; research regarding state Medicaid financing policy and practices; working
with states to resolve A-133 audits; and, among other activities, monitoring state revenue
maximization contracts.

Payment Error Rate Measurement (PERM):
PERM is the program that CMS uses to implement the Improper Payments Information Act of
2002 (IPIA), which requires HHS to measure improper payments in Medicaid and SCHIP. In
order to comply with the IPIA, CMS has elected to use Federal contractors to measure Medicaid
and SCHIP error rates in a subset of states every year. In FY 2006, CMS measured fee-for-
service Medicaid error rates. Beginning in FY 2007, however, the PERM project will expand
into testing Medicaid and SCHIP fee-for-service, managed care, and eligibility.


                                   Administration on Aging
In FY 2006, the Administration on Aging (AoA) was allocated $3.128 million in HCFAC funds
to support community education activities designed to assist older Americans and their families to
recognize and report potential errors or fraudulent situations in the Medicare and Medicaid
programs. In FY 2006, these efforts included a particular focus on developing and disseminating
consumer education information targeted to older Americans, with low health literacy, individuals
from a variety of cultural backgrounds, persons living in rural areas, and other potentially under-
served populations.
                                                  34

The Senior Medicare Patrol (SMP) program recruits retired professionals to educate and assist
Medicare beneficiaries to detect and report health care fraud, error, and abuse in the Medicare and
Medicaid programs. According to the last performance information from the Assistant Inspector
General for Evaluation and Inspections, over the 12-month period ending December 31, 2006, the
57 SMP projects trained over 9,500 new senior volunteers. These volunteers perform an essential
function of this program by sharing the SMP message within the senior community.

Outreach to senior consumers is a key element of the SMP program. During this period, SMP
projects conducted over 9,100 media events and held almost 9,000 community education events
to increase beneficiary awareness about issues related to Medicare and Medicaid integrity.
During this period, over 200,000 one-on-one sessions were held between volunteers and
beneficiaries. As a result of SMP outreach and education efforts, over 400,000 beneficiaries were
educated, either in group or one-on-one sessions.

As a result of educating beneficiaries, the projects received over 11,800 complaints. While the
SMP program staff was able to address the majority of these issues for beneficiaries, over 4,000
were referred to Medicare contractors or other responsible agencies for follow-up. Over 2,500 of
these complaints resulted in money recouped to the Medicare program or another action taken by
the Medicare contractor or investigative agency. In total, SMP projects documented over
$700,000 recouped to the Medicare program during this period.

While it is not possible to directly track all of the cases reported and dollars recovered through
SMP community education activities, or quantify the “sentinel effect” in fraud costs avoided due
to increased consumer awareness, over $105.2 million has been reported as savings attributable to
the program since its inception.


                              Office of the General Counsel

In FY 2006, The Office of General Counsel (OGC) was allocated $4.778 million in HCFAC
funding to supplement OGC’s efforts to support program integrity activities. OGC provides legal
support consistent with the statutory authority of the HCFAC program. While a considerable
portion of these funds supported OGC’s litigation activity, both administrative and judicial, OGC
placed an increased focus upon program integrity review this fiscal year.


FCA and Qui Tam Actions: OGC provides support to DOJ in actions relating to Medicare or
Medicaid fraud under the FCA. Among these were Tenet Healthcare Corporation, and Serono
S.A., as detailed under the Accomplishments section.

Criminal Prosecutions: When requested, OGC assists the United States Attorney’s Offices
(USAOs) in criminal prosecution of Medicare providers. One such case involved an investigation
of a group of surgeons and the hospital that purchased their surgical practice. One doctor would
be listed as the lead surgeon on one operation and as assistant on a second operation going on at

                                                35

the same time, or a doctor would be shown assisting multiple surgeries that were happening at the
same time. Additionally, OGC worked closely to assist Federal prosecutors in the investigation
of one of the owners of a power mobility supplier. The owner entered into a criminal plea
agreement and pled guilty to the violation of health care fraud provisions related to furnishing
power mobility to Medicare beneficiaries.

Suspensions and Revocations: OGC assists HHS in deciding whether to suspend payments to
Medicare providers and suppliers, or to revoke billing privileges when problems are discovered.
For example, a licensed respiratory therapist appealed the carrier's determination that he was not
qualified to enroll as a supplier because respiratory therapists are not included in the list of
practitioner types that may deliver services to beneficiaries without direct physician supervision.
After OGC filed CMS’s brief supporting the carrier's denial, pointing out lack of Congressional
authorization, and advanced the arguments at a pre-hearing conference, the individual withdrew
his appeal.

Civil Monetary Penalties (CMPs): During FY 2006, OGC provided legal advice to CMS
regarding the development and imposition of CMPs and defended CMS in administrative appeals
and judicial litigation resulting from these cases. OGC recovered over $4 million in CMPs in FY
2006. Among these, an Administrative Law Judge (ALJ) upheld a $220,600 CMP which
included a $10,000 per day CMP at the immediate jeopardy level for 22 days, a denial of payment
for new admissions and the termination of a facility from the Medicare program based on the
facility’s failure to address the aggressive and destructive behaviors of a number of its residents
(some of whom had criminal records) and its failure to provide adequate supervision of these
residents who menaced and threatened to kill other residents.

In addition, MMA’s Part D prescription drug program has created new work for OGC in the area
of CMPs. For example, OGC defended CMS’s imposition of a CMP on Sav-Rx, Inc., a national
provider of managed care prescription services. CMS imposed a CMP on Sav-Rx as a result of
the company’s conduct as a prescription drug card program sponsor.

Other Provider Enforcement: OGC represented CMS in an enforcement action involving a
determination to revoke the Arkansas Department of Health Central Laboratory Clinical
Laboratory Improvement Amendment certificate. The effect of this revocation was to potentially
shut down the state’s central lab and 94 health department clinics around the state. OGC
facilitated a creative solution in an attempt to avert such a result by allowing a newly created state
agency, the Arkansas Department of Health and Human Services, to become the owner and
operator of the central lab and 94 clinics.

Affirmative Overpayment Litigation: OGC defends numerous lawsuits challenging CMS’s
overpayment determinations. For example, OGC attorneys are engaged in a project involving the
collection of overpayments against 383 providers who incurred overpayments as a result of
billing for the cancer drug, Lupron. The total overpayment involved is almost $2.4 million.

Medicaid Integrity: OGC provides legal support to CMS’s new Medicaid Integrity Program,
established by the DRA. OGC has been working on a recent HHS/OIG audit finding that $86.6

                                                 36

million in Federal financial participation has been inappropriately claimed by the Massachusetts
State Medicaid agency for targeted case management services. The state agency disagreed with
the audit finding, and asked CMS to reconsider the matter. OGC also received favorable decisions
from the DAB in two appeals by Illinois which upheld over $100 million in disallowances of
Federal financial participation ($98.6 million in one appeal and $19.9 million in the other appeal)
regarding Medicaid school-based services.

Other Program Integrity Activity:

Advising the Agency on the Physician Self-Referral Law and Electronic Prescribing, Electronic
Health Records, and Specialty Hospitals. OGC worked closely with CMS and HHS in the drafting
of a final rule aimed at one of HHS’ highest priorities: encouraging adoption of electronic health
information technology. CMS proposed two exceptions to the physician self-referral prohibition
under which certain entities would be permitted to donate to physicians valuable electronic
prescribing software, equipment, and training services on electronic health records software and
training services, provided that the arrangements satisfy several criteria designed to prevent fraud
and abuse.

Defending regulatory challenges in litigation. A Federal district court has dismissed for lack of
standing a regulatory challenge brought by Renal Physicians Association regarding a provision in
the CMS regulations that interprets a physician self-referral (Stark) safe harbor. Under the safe
harbor, hourly physician compensation calculated using either of two specified methodologies is
deemed to be “fair market value.” The court ruled that Renal Physicians Association lacked
standing to sue, and should instead petition CMS to modify or eliminate the safe harbor in the final
rule.

                    Health Resources and Services Administration

In 2006, the Health Resources and Services Administration allocated $450,320 in HCFAC
funding to the Healthcare Integrity and Protection Data Bank (HIPDB) to supplement the overall
operations and maintenance of the program. The primary focus of the HIPDB is to prevent or
reduce fraud and abuse in the medical system and to enhance quality health care by serving as a
repository for collecting, maintaining, and reporting on final adverse actions taken against health
care providers, suppliers and practitioners. This information helps prevent practitioners,
providers, and suppliers with problem backgrounds from moving from state to state unnoticed by
licensing, government and health plan officials, thus improving health care quality. It also assists
law enforcement officials in their efforts against health care fraud and abuse.

As a result of HCFAC funding, the following enhancement was under development in FY 2006 to
improve the HIPDB system timeliness, availability and performance:

   •	 Over the past four years, HRSA has explored the feasibility of providing a Proactive
      Disclosure Service (PDS) to entities’ eligible to query the data banks. With this service,
      all eligible entities that choose to register their practitioners with the National Practitioner
      Data Bank (NPDB) and/or HIPDB will be notified of new reports that name any of their

                                                 37

       registered practitioners as subjects within one day of the data banks’ receipt of the report.
       The PDS system is scheduled to be implemented in 2007. Data bank users were invited to
       participate in the prototype.

The HIPDB opened for reporting on November 22, 1999. As of September 30, 2006, the HIPDB
contained 255,879 reports of health care related civil judgments, criminal convictions,
injunctions, licensing and certification actions, exclusions from state and Federal health care
programs, and other adjudicated actions involving 147,499 individuals and 5,939 organizations.

The HIPDB opened for routine queries on March 6, 2000. By September 30, 2006, the HIPDB
had responded to 6,194,850 queries from state and Federal agencies (including law enforcement)
and health plans. Health plans were responsible for 78.4 percent of the queries.

The HIPDB has processed over 6.5 million queries since 2000 and maintains approximately
256,000 reports.

     Office of the National Coordinator for Health Information Technology

In FY 2006, the Office of the National Coordinator for Health Information Technology (ONC)
was allocated $490,000 in HCFAC funding. This funding was used to fund an anti-fraud project.
The project included the following four tasks:

•	     Work with Federal agencies, health information technology vendors, health care
       providers, private health insurers, and the National Health Information Network process to
       develop and coordinate model functionalities and requirements for health care anti-fraud
       data collection in electronic health records, and the submission, compilation and analysis
       of such data;

•	     Work with the Health Information Technology Standards Panel to identify existing and
       new standards needed to meet model functionalities and requirements, and develop a plan
       to complete the needed standards;

•	     Work with the Certification Commission for Health Information Technology on
       translating model functionalities and requirements for health care anti-fraud data
       collection and management into electronic health records certification criteria; and
       develop detailed specifications for testing the electronic health records anti-fraud
       certification criteria to enable ONC to pilot test the criteria.

All of the abovementioned tasks are based upon two reports issued in FY 2005 by the Foundation
of Research and Education of the American Health Information Management Association which
detailed how health information technology can address the growing problem of health care fraud,
and demonstrated the need for additional research on anti-fraud technology and electronic health
records.



                                                38

            FUNDING FOR THE DEPARTMENT OF JUSTICE

                                   United States Attorneys

In FY 2006, the United States Attorney’s Offices (USAOs) were allocated $30.4 million in
HCFAC funding to support civil and criminal health care fraud and abuse litigation as
exemplified in the Program Accomplishments section. The USAOs dedicated substantial
resources to combating health care fraud and abuse in FY 2006, and HCFAC allocations have
supplemented those resources by providing funding for attorneys, paralegals, auditors and
investigators, as well as funds for litigation of resource-intensive health care fraud cases.

The 93 United States Attorneys and their assistants, or AUSAs, are the nation’s principal
prosecutors of Federal crimes, including health care fraud, and each district has a designated
Criminal Health Care Fraud Coordinator and a Civil Health Care Fraud Coordinator. Civil cases
are also obtained by USAOs by means of qui tam complaints. Under the FCA, a qui tam plaintiff
(a “relator”) must file his or her complaint under seal in a United States District Court, and serve
a copy of the complaint upon the USAO for that judicial district, as well as the Attorney General.

In addition to the positions funded by HCFAC, the Executive Office for the United States
Attorneys’ Office of Legal Education uses HCFAC funds to train AUSAs and other DOJ
attorneys, as well as paralegals, investigators, and auditors in the investigation and prosecution of
health care fraud. In FY 2006, courses and presentations on health care fraud included the Health
Care Fraud Coordinator’s Conference for Civil and Criminal AUSAs, Health Care Fraud for new
AUSAs, and Affirmative Civil Enforcement for Auditors, Investigators and Paralegals. USAOs
also handle most criminal and civil appeals at the Federal appellate level.

Criminal Prosecutions
In FY 2006, the USAOs received 836 new criminal matters involving 1,448 defendants, and had
1,677 health care fraud criminal matters pending,7 involving 2,713 defendants. The USAOs filed
criminal charges in 355 cases involving 579 defendants, and obtained 547 federal health care
related convictions.

Civil Matters
USAOs play a major role in health care fraud enforcement by bringing affirmative civil cases to
recover funds that federal health care programs have paid as a result of fraud, waste, and abuse.
USAOs use affirmative civil enforcement litigation to recover monies wrongfully taken from the
Medicare Trust Fund and other taxpayer-funded health care systems, and to ensure that the federal
health care programs are fully compensated for the losses and damages resulting from such thefts.
Civil AUSAs, similar to their criminal counterparts, litigate a wide variety of health care fraud
matters including false billings by doctors and other providers of medical services, overcharging


        7
        When a USAO accepts a criminal referral for consideration, the office opens it as a
matter pending in the district. A referral remains a pending matter until an indictment or
information is filed or it is declined for prosecution.
                                                  39
by hospitals, Medicaid fraud, kickbacks to induce referrals of Medicare or Medicaid patients,
fraud by pharmaceutical companies, and failure of care allegations against nursing home owners.

In FY 2006, USAOs opened 698 new civil health care fraud matters and filed 217 new civil
health care fraud cases. At the end of FY 2006, the USAOs had 1,268 civil health care fraud
matters and 748 cases pending. Civil health care fraud referrals are often made to USAOs
through the law enforcement network described above, and these cases are usually handled
primarily by the USAOs, though they are sometimes handled jointly with the Civil Division. The
other principal source of referrals of civil cases for USAOs is through the filing of qui tam (or
whistleblower) complaints. These cases are often handled jointly with trial attorneys within the
Civil Division, but may be handled by the USAO itself.

                                         Civil Division

In FY 2006, the Civil Division was allocated $15.459 million in HCFAC funding to support civil
health care fraud litigation (this amount includes $1 million allotted for the Nursing Home and
Elder Justice Initiative). Civil Division attorneys pursue civil and criminal remedies in health
care fraud matters, working closely with the USAOs, the FBI, the HHS/OIG and the Department
of Defense, CMS, and other federal and state law enforcement agencies. Cases involve providers
of health care services, supplies and equipment, as well as carriers and fiscal intermediaries, that
defraud Medicare, Medicaid, TRICARE, the Federal Employees Health Benefits Program
(FEHB), and other government health care programs.

In FY 2006, the Division opened or filed a total of 239 health care fraud cases or matters. In
addition to these new efforts, the Civil Division pursued 680 existing cases or matters that
remained open at the end of FY 2005. Civil Division attorneys were actively involved in the
recoveries described earlier in this report. In addition, the Civil Division provided in-depth,
multi-day, training to AUSAs nationwide on the FCA and other civil fraud remedies, including
issues relating to the investigation and litigation of qui tam cases, and continued to provide
training to DOJ and HHS components on a regular basis.

Civil Division attorneys litigate a wide range of health care fraud matters, including cases
involving allegations of overcharging by hospitals, and other Medicare Part A institutional
providers; similar claims against suppliers of durable medical equipment and other supplies under
Part B of Medicare; similar allegations involving state Medicaid programs; claims that doctors
and others have been paid kickbacks or other remuneration to induce referrals of Medicare or
Medicaid patients, in violation of the Anti-kickback Act and Physician Self-Referral laws; claims
of false price reporting and illegal marketing of pharmaceuticals and medical devices by
companies and related entities; and allegations that nursing homes have failed to provide
necessary care to the elderly. Among these are multi-district cases involving large health
providers and suppliers that typically require coordination among affected Federal agencies,
USAOs, state Medicaid Fraud Control Units and other state agencies, and various investigative
organizations.



                                                 40

The Civil Division continues to staff and provide a critical coordination function in the FCA
investigations alleging pharmaceutical price reporting fraud against government health care
programs. These matters involve hundreds of manufacturers and related entities, span multiple
districts and present myriad legal and factual issues. Civil Division attorneys have spearheaded
substantial efforts to share information and evidence, as appropriate, with the USAOs and other
components of DOJ, as well as HHS components including the Food and Drug Administration.
In addition, close communication with state Medicaid Fraud Control Units and state attorneys
general is ongoing to ensure that federal and state investigations and litigation are coordinated.
Since 1999, cases involving violations of the Food Drug and Cosmetic Act, or other types of
fraud by pharmaceutical manufacturers in connection with Federal health benefit programs have
resulted in total criminal and civil recoveries of over $5.3 billion.

In addition to these accomplishments, the Nursing Home and Elder Justice Initiative, coordinated
by the Civil Division, among other things, supports enhanced prosecution and coordination at
federal, state and local levels to fight abuse, neglect, and financial exploitation of the nation’s
senior and infirm population. This initiative makes grants to promote prevention, detection,
intervention, investigation, and prosecution of elder abuse and neglect, and to improve the scarce
forensic knowledge in the field. The Civil Division is also pursuing a growing number of cases
under the FCA involving providers’ egregious “failures of care.”

Civil Division attorneys, working with attorneys in the Criminal Division and the Executive
Office of United States Attorneys (EOUSA), have played a critical role in coordinating and
presenting the views of the Department of Justice to the Department of Health and Human
Services as the two Departments coordinate their respective health care fraud enforcement efforts.
Civil Division attorneys assisted CMS as it implemented its Medicaid Integrity Program that was
created by the DRA. Civil Division attorneys also assisted in enhanced Federal Medicaid fraud
enforcement efforts, providing assistance in the planning and implementation of a training
conference sponsored by the HHS/OIG and held at the National Advocacy Center in September,
2006.

                                      Criminal Division

The Criminal Division was allocated $1.58 million in HCFAC funding to support criminal health
care fraud litigation, prevention and interagency coordination in FY 2006. The Criminal
Division’s Fraud Section develops and implements white collar crime policy, and supports the
Federal white collar crime enforcement community through litigation, coordination, policy and
legislative work. The Fraud Section is responsible for handling and coordinating complex health
care fraud litigation nationwide. The Fraud Section also supports the USAOs with legal and
investigative guidance, training, and, in certain instances, provides trial attorneys to prosecute
criminal health care fraud cases.

In FY 2006, the Fraud Section provided guidance to FBI agents, AUSAs and Criminal Division
attorneys on criminal, civil and administrative tools to combat health care fraud, and worked on
an interagency level through the following activities:


                                                41

•	     coordinating large scale multi-district health care fraud investigations;

•	     providing frequent advice and written materials on confidentiality and disclosure issues
       arising in the course of investigations and legal proceedings regarding patient medical
       records, including HIPAA medical privacy requirements, compliance with the Substance
       Abuse Patient Medical Records Privacy Act and regulations, and coordinating referrals
       from the HHS Office of Civil Rights of possible criminal violations of the HIPAA privacy
       statute;

•	     providing training and training materials for AUSAs, investigative agents, support staff,
       program agency officials, and state and local law enforcement on health care fraud
       enforcement and medical records privacy issues;

•	     monitoring and coordinating DOJ responses to legislative proposals, major regulatory
       initiatives, and enforcement policy matters related to prevention, deterrence and
       punishment of health care fraud and abuse;

•	     reviewing and commenting on health care provider requests to the HHS/OIG for advisory
       opinions, and consulting with the HHS/OIG on draft advisory opinions per HIPAA
       requirements;

•	     working with USAOs and CMS to improve Medicare contractors’ fraud detection,
       referrals to law enforcement for investigation, and case development work;

•	     preparing and distributing to all USAOs and FBI field offices periodic summaries of
       recent and significant health care fraud cases; and

•	     organizing, overseeing and participating on interagency working groups formed to address
       specific cases and initiatives, often in conjunction with the Civil Division and Executive
       Office for United States Attorneys.

In FY 2006, Fraud Section attorneys and the USAO from the Eastern District of Louisiana filed a
superseding indictment of four corporate executives in a case involving the collapse of
Louisiana’s third largest health maintenance organization and its subsequent takeover and
liquidation by the state Department of Insurance. The USAO for the Southern District of Florida
and Fraud Section attorneys also indicted five defendants who were involved in a scheme to
defraud Medicare by submitting prescriptions for groups of Medicare beneficiaries who were paid
kickbacks by certain pharmacies to allow the fraudulent billing of aerosol medicines. These cases
are scheduled to go to trial in 2007.

Along with the USAO for the Southern District of Mississippi, Fraud Section attorneys also
prosecuted seven individuals who participated in a scheme to create bogus prescription histories
and file fraudulent claims against a $400 million settlement fund established by the manufacturer
of the diet drugs Redux and Pondimin, commonly known as “Fen-Phen,” for medical injuries


                                                42

caused by the inappropriate prescription of these products. As of September 30, 2006, a total of
25 defendants were convicted in this multi-year ongoing joint investigation.

Fraud Section staff, along with criminal and civil AUSAs, trained CMS regional and central
office staff hired to administer the Medicare prescription drug (Part D) benefit and monitor the
Prescription Drug Plans and Medicare Advantage Prescription Drug Plans on Federal health care
fraud statutes and possible fraud schemes which could occur in the Medicare Part D program.
The team of Fraud Section staff and AUSAs also conducted two national training seminars for
CMS Medicare Drug Integrity Contractor (MEDICs) staff hired to conduct program integrity and
anti-fraud work for the Part D program. In collaboration with the Civil Division, the Fraud
Section co-sponsored a national training and coordination seminar for AUSAs and DOJ attorneys
focused on pharmaceutical fraud matters and Food, Drug, and Cosmetic Act violations.

The Fraud Section, along with the Civil Division and EOUSA, prepared and broadcast three
HIPAA medical privacy rule national training seminars from the National Advocacy Center over
the Justice Television Network for: all DOJ personnel who obtain and use medical records; all
Federal health oversight investigators and prosecutors; and a final program for all general state
and law enforcement personnel which was co-broadcast on the new National District Attorneys’
Association training network. In conjunction with HIPAA medical privacy broadcast, Fraud
Section staff distributed written training materials and laminated reference cards summarizing and
explaining the specific HIPAA law enforcement and Federal Privacy Act exceptions that permit
disclosure of personally identifiable health information in certain circumstances to criminal
investigators and police to over 16,000 state and local law enforcement agencies nationwide. The
Fraud Section also responded to hundreds of follow-up questions and requests from local law
enforcement agencies for additional guidance on HIPAA.

                                      Civil Rights Division

In FY 2006, the Civil Rights Division was allocated $1.98 million in HCFAC funding to support
Civil Rights Division litigation activities related to health care fraud and abuse. The Civil Rights
Division pursues relief affecting public, residential health care facilities. The Division has also
established an initiative to eliminate abuse and grossly substandard care in public, Medicare and
Medicaid funded nursing homes and other long-term care facilities.

The Division plays a critical role in the HCFAC Program. The Special Litigation Section of the
Civil Rights Division is the sole DOJ component responsible for the Civil Rights of
Institutionalized Persons Act, 42 U.S.C. § 1997 (CRIPA). CRIPA authorizes the investigation of
conditions of confinement at state and local residential institutions (including facilities for
persons with developmental disabilities or mental illness, and nursing homes) and initiation of
civil action for injunctive relief to remedy a pattern or practice of violations of the Constitution or
Federal statutory rights. The review of conditions in facilities for persons who have mental
illness, facilities for persons with developmental disabilities, and nursing homes comprises a
significant portion of the program. The Special Litigation Section works collaboratively with the
USAOs and HHS.

                                                  43

Fiscal Year 2006 Accomplishments

As part of DOJ’s Institutional Health Care Abuse and Neglect Initiative, and as an enhancement
to ongoing CRIPA enforcement efforts, the Special Litigation Section staff conducted preliminary
reviews of conditions and services at 29 health care facilities in twelve states during Fiscal Year
2006. The task in preliminary inquiries is to determine whether there is sufficient information
supporting allegations of unlawful conditions to warrant formal investigation under CRIPA. The
section reviews information pertaining to areas such as abuse and neglect, medical and mental
health care, use of restraints, fire and environmental safety, and placement in the most integrated
setting appropriate to individual needs. Separately, in Fiscal Year 2006, the Section opened or
continued formal investigations, entered remedial agreements, or monitored existing remedial
agreements regarding 45 health care facilities in 23 states, the District of Columbia, and the
Commonwealth of Puerto Rico.

In Fiscal Year 2006, the Section commenced investigations of two state-operated facilities for
persons with mental illness and one publicly-operated nursing home. Those facilities are
Connecticut Valley Hospital, in Middletown, Connecticut, Oregon State Hospital, in Salem and
Portland, Oregon, and C.M. Tucker, Jr. Nursing Care Center, in Columbia, South Carolina.

The Section found that conditions and practices at two state-operated facilities and one city-
operated facility for persons with mental illness, one state-operated facility for persons with
developmental disabilities, and one publicly-operated nursing home, violate the residents' Federal
constitutional and statutory rights. Those facilities are: Atascadero State Hospital, in Atascadero,
California, Patton State Hospital, in Patton, California, St. Elizabeths Hospital, in Washington,
D.C., Lanterman Developmental Center, in Pomona, California, and Fort Bayard Medical Center,
in Fort Bayard, New Mexico.

The Section entered settlement agreements to resolve its investigations of one publicly-operated
nursing home, two state-operated facilities for persons with developmental disabilities, and nine
state-operated facilities for persons with mental illness. Those facilities are: A Holly Patterson
Extended Care Facility, in Uniondale, New York; Woodbridge Developmental Center, in
Woodbridge, New Jersey; the Communities at Oakwood, in Somerset, Kentucky; Vermont State
Hospital, in Waterbury, Vermont; Dorothea Dix Hospital, in Raleigh, North Carolina; Broughton
Hospital, in Morganton, North Carolina; Cherry Hospital, in Goldsboro, North Carolina; John
Umstead Hospital, in Butler, North Carolina; Metropolitan State Hospital, in Norwalk, California;
Napa State Hospital, in Napa, California; Atascadero State Hospital, in Atascadero, California;
and Patton State Hospital, in Patton, California.

The Section continued its investigations of eight residential facilities for persons with
developmental disabilities: Agnews Developmental Center, in San Jose, California; Sonoma
Developmental Center, in Eldridge, California; Lanterman Developmental Center, in Pomona,

                                                44

California; Rainier Residential Rehabilitation Center, in Buckley, Washington; Frances Haddon
Morgan Center, in Lacey, Washington; Conway Developmental Center, in Conway, Arkansas;
Lubbock State School, in Lubbock, Texas; and Bellefontaine Developmental Center, in St. Louis,
Missouri. In addition, the Section continued its investigations of two publicly-operated nursing
homes: Charlotte Hall Veterans Home, in Charlotte Hall, Maryland; and the Laguna Honda
Hospital and Rehabilitation Center in San Francisco, California. The Section also continued its
investigation of one residential facility for persons with mental illness: St. Elizabeths Hospital in
the District of Columbia. In some of these matters, the Section is reviewing voluntary
compliance to improve conditions.

The Section monitored the implementation of remedial agreements for 13 facilities for persons
with developmental disabilities: Fort Wayne State Developmental Center, in Fort Wayne,
Indiana; Central Wisconsin Center, in Madison, Wisconsin; Southern Wisconsin Center, in Union
Grove, Wisconsin; Pinecrest Developmental Center, in Pinecrest, Louisiana; Hammond
Developmental Center, in Hammond, Louisiana; Clover Bottom Developmental Center, in
Nashville, Tennessee; Greene Valley Developmental Center, in Greeneville, Tennessee; Harold
Jordan Center, in Nashville, Tennessee; Arlington Developmental Center, in Arlington,
Tennessee; New Lisbon Developmental Center, in New Lisbon, New Jersey; Southbury Training
School, in Southbury, Connecticut; Woodward Resource Center, in Woodward, Iowa; and
Glenwood Resource Center, in Glenwood, Iowa. It also monitored the implementation of
remedial agreements regarding community placements from facilities for persons with
developmental disabilities in Indiana, Puerto Rico, and Washington, D.C.

The Section monitored the implementation of remedial agreements for four nursing homes:
Banks-Jackson-Commerce Medical Center and Nursing Home, in Commerce, Georgia; Nim
Henson Geriatric Center, in Jackson, Kentucky; Reginald P. White Nursing Facility, in Meridian,
Mississippi; and Mercer County Geriatric Center, in Trenton, New Jersey. The Section also
monitored the implementation of a remedial agreement regarding two state-operated residential
facilities for persons with mental illness: Hawaii State Hospital in Kanehoe, Hawaii (and the
associated community mental health system) and Memphis Mental Health Institute, in Memphis,
Tennessee. Finally, the Section monitored the implementation of a remedial agreement regarding
one residential facility for children with visual disabilities: New Mexico School for the Visually
Handicapped, in Alamogordo, New Mexico.




                                                 45

Page intentionally left blank





              46
                                         APPENDIX



                              Federal Bureau of Investigation

                                   Mandatory Funding

       “There are hereby appropriated from the general fund of the United States Treasury and
       hereby appropriated to the Account for transfer to the Federal Bureau of Investigation to
       carry out the purpose described in subparagraph ©, to be available without further
       appropriation - (I) for fiscal year 2006, $114,100,000.”

In FY 2006, the FBI was allocated $114 million in HCFAC funding for health care fraud
enforcement. This yearly appropriation was used to support 775 positions (455 Agent, 320
Support) in FY 2006, a decrease of 31 positions from the positions supported in FY 2005 (11
Agent, 20 Support). The FY 2006 funding did not allow for cost of living increases, necessitating
reductions in funded staffing levels. The number of pending investigations has shown steady
increase from 591 cases in 1992 to 2,423 cases through 2006. FBI-led investigations resulted in
535 criminal health care fraud convictions and 588 indictments and informations being filed in
FY 2006.

The FBI is the primary investigative agency involved in the fight against health care fraud that
has jurisdiction over both the Federal and private insurance programs. With health care
expenditures rising at three times the rate of inflation, it is especially important to coordinate all
investigative efforts to combat fraud within the health care system. More than $1 trillion is spent
in the private sector on health care and its related services and the FBI's efforts are crucial to the
overall success of the program. The FBI leverages its resources in both the private and public
arenas through investigative partnerships with agencies such as the HHS/OIG, the FDA, the Drug
Enforcement Administration (DEA), the Defense Criminal Investigative Service, the Office of
Personnel Management, the Internal Revenue Service and various state and local agencies. On
the private side, the FBI is actively involved with national groups, such as the National Health
Care Anti-Fraud Association (NHCAA), the Blue Cross and Blue Shield Association and the
National Insurance Crime Bureau, as well as many other professional and fundamental efforts to
expose and investigate fraud within the system.

Health care fraud investigations are considered a priority within the White Collar Crime Program
Plan. In addition to being a partner in the majority of investigations listed in the body of this
report, FBI field offices throughout the U.S. have proactively addressed significant health care
fraud through coordinated initiatives, task forces, and undercover operations to identify and
pursue investigations against the most egregious offenders which may include organized criminal
activity and criminal enterprises. Organized criminal activity has been identified in the operation
of medical clinics, independent diagnostic testing facilities, DME companies and other health care

                                                  47

facilities. The FBI is committed to addressing this criminal activity through disruption,
dismantlement and prosecution of criminal organizations.

The FBI initiated the Internet Pharmacy Fraud Initiative which focuses on Internet web sites and
individuals selling illegal prescription drugs and controlled substances. The overall goal of the
Internet Pharmacy Fraud Initiative is to identify fraudulent Internet pharmacies and target
physicians who are willing to write prescriptions for financial gain outside of the doctor/patient
relationship and with no legitimate medical purpose. Also in the scope of this initiative are
investigations involving the sale of counterfeit and diverted pharmaceuticals on the Internet.

The majority of funding received by the FBI is used to pay personnel costs associated with the
775 funded positions. Funds not used directly for personnel matters are used to provide
operational support for major health care fraud investigations and national initiatives currently
focusing on pharmaceutical fraud and outpatient surgery centers. Further, the FBI continues to
support individual investigative needs such as the purchase of specialized equipment and expert
witness testimony on an as-needed basis.




                                                48

                                  Glossary Of Terms


The Account - The Health Care Fraud and Abuse Control Account


AHM - American Healthcare Management Inc.


AIDS - Auto-Immune Deficiency Syndrome


AoA - Department of Health and Human Services, Administration on Aging


AMP - Average Manufacturer Prices


AUSA - Assistant United States Attorney


BIA - Bioelectrical Impedance Analysis


CIA - Corporate Integrity Agreement


CMN - Certificate of Medical Necessity


CMP - Civil Monetary Penalty


CMPL - Civil Monetary Penalties Law, 42 U.S.C. § 1320a-7a


CMS - Department of Health and Human Services, Centers for Medicare & Medicaid Services


CRIPA - Civil Rights of Institutionalized Persons Act


DME - Durable Medical Equipment


DRA - Deficit Reduction Act of 2005


DOJ - The Department of Justice


DSH - Disproportionate Share Hospital


EOUSA - Executive Office for the United States Attorneys


FBI - Federal Bureau of Investigation


FCA - False Claims Act


FDA - Food and Drug Administration


FEHBP - Federal Employees Health Benefits Program



                                                    49

FTE-Full-time equivalent


GHP - Group Health Plan


GME - Graduate Medical Education


GPO - Group Purchasing Organization


HCFAC - -Health Care Fraud and Abuse Control Program or the Program


HHS - The Department of Health and Human Services


HHS/OIG - The Department of Health and Human Services - Office of the Inspector General


HI - Hospital Insurance Trust Fund


HIPAA, or the Act - The Health Insurance Portability and Accountability Act of 1996, P.L. 104-191


HIPDB - Healthcare Integrity and Protection Data Bank


HIV - Human Immunodeficiency Virus


HMO - Health Maintenance Organization


HRSA - The Department of Health and Humans Services - Health Resources and Services Administration


LEA - Local Education Agencies


MMA - Medicare Prescription Drug, Improvement and Modernization Act of 2003


MSP - Medicare Secondary Payer


NAMFCU - The National Association of Medical Fraud Control Units


NHCAA - National Health Care Anti-Fraud Association


OGC - The Department of Health and Human Services, Office of the General Counsel


ONC - The Department of Health and Human Services - Office of the National Coordinator for Health Information
Technology


PERM - Program Error Rate Measurement


Proactive Disclosure Service - PDS


The Program - The Health Care Fraud and Abuse Control Program


SCHIP - State Children’s Health Insurance Plan
                                                   50

Secretary - The Secretary of the Department of Health and Human Services


SMP - Senior Medicare Patrol


UPL - Upper Payment Limit


USAO - United States Attorney’s Office


VFC - Vaccines for Children Program




                                                   51

